GSA's SIGNIFICANT MANAGEMENT CHALLENGES

The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning process
commits us to addressing these critical issues. The following table briefly describes the challenges
we have identified for GSA and references related work products issued by the GSA OIG and dis-
cussed in this semiannual report.



                           eRIEP1 DE$CRIPTION OP1 CI*IALLENGE
                              ,                                                     ~




PROTECTION OF              GSA is responsible for protecting the life and safety        2-7
FEDERAL FACILITIES         of employees and public visitors in Federal buildings.
AND PERSONNEL              A broadly integrated security program is required.

INFORMATION                Technology applications have increased exponentially         7 -10, 30
TECHNOLOGY                 as "E-gov"is used to better manage operations and
                           interface with the public, but complex integration and
                           security issues exist.

MANAGEMENT                 Management controls have been streamlined, resulting         10-15,29
CONTROLS                   in fewer and broader controls, making it essential that
                           the remaining controls be emphasized and consistently
                           followed.

                           GSA is being challenged to provide quality space to          15
                           Federal agencies using an aging, deteriorating inventory
                           of          and facing critical budgetary limitations in
                           its modernization program.

PROCUREMENT                Simplified processes have reduced order and delivery         18 -22,
ACTIVITIES                 time, yet competitive principles are not always followed     23,29
                           and opportunities may be missed for less costly services
                           and products.

HUMAN CAPITAL              GSA's corporate knowledge is eroding and efforts to          No
                           obtain requisite skills for the future are impeded. Better   Reports
                           recruitment and training programs are needed to              This
                           develop the 21st century workforce.                          Period
           Foreword




This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG)
for the 6-month reporting period that ended March 31, 2001.

Many of our reports addressed vital aspects of major Agency programs and
operations. In the area of security and safety, we reported on means to
expedite employee background checks for childcare workers, alerted
management to long-existing fire safety hazards at a major building complex,
and offered recommendations for enhancing the exchange of security
information among Federal Protective Service law enforcement personnel
nationwide. In business matters, we assessed the first phase of an Agency-
wide contract effort to provide standardized hardware, software, and support
to Agency personal computer users, and we examined the Federal
Technology Service’s customer billing practices for specialized services. Our
work in building operations identified some of the major causes for escalating
repair and alteration costs, while review of GSA efforts to respond to utility
deregulation found that GSA has taken sound steps to control costs. We
also fulfilled a Congressional mandate to assess and report on whether
personal privacy is in any way breached when members of the public access
Agency computer Web sites.

Working with the Department of Justice, we obtained $9 million in a
settlement related to a computer manufacturer’s overcharging Federal
customers for computer systems. Savings achieved from management
decisions on audit financial recommendations, civil settlements, and
investigative recoveries totaled over $99 million.

I would like to add a personal note. This will be the last Semiannual Report I
will submit as GSA’s Inspector General as I have decided to retire from
Federal service on June 1, 2001. For the past 15 years, I have been given
an extraordinary opportunity to serve this Agency and the country. I have
been an eye-witness to tremendous challenges and change throughout the
Federal Government and time and again have come to appreciate the ability
of Federal agencies and the dedication and commitment of Federal
employees to meet these challenges head on. I am especially proud of the
OIG’s role in GSA’s efforts to redefine itself and to improve its abilities to
serve our country’s taxpayers. My experiences as the Inspector General
have been most rewarding largely due to the fine people of our OIG. I
commend them for their continued professionalism, dedication, and
           Foreword




willingness to accept new challenges. I truly believe this is the best Office of
Inspector General in the Government. I also want to thank the GSA Acting
Administrator, GSA’s senior managers, and the Congress for their support
during my years at GSA. I have thoroughly enjoyed my tenure here and am
deeply honored to have had the opportunity to serve as GSA’s Inspector
General.




WILLIAM R. BARTON
Inspector General
April 30, 2001
      Table of Contents




                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Major Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . . .2

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

  Aging Federal Buildings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15

Procurement and Related Activities . . . . . . . . . . . . . . . . . . . . . . . . .18

Partnering with GSA Management . . . . . . . . . . . . . . . . . . . . . . . . . .24

Prevention Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .29

Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . .35

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .38

Appendices

Appendix I–Significant Audits from Prior Reports . . . . . . . . . . . . . .45

Appendix II–Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . . .48

Appendix III–Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .61

Appendix IV–Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . . .73

Appendix V–Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . .74


This semiannual report may be accessed on the Internet at the
following address: http://www.gsa.gov/Portal/org.jsp?CID=59




                                                                     Office of Inspector General iii
                      Summary of OIG Performance




OIG Accomplishments     October 1, 2000 - March 31, 2001

                        Total financial recommendations                              $77,713,445

                        These include:

                        • Recommendations that funds be put to better use            $67,256,972

                        • Questioned costs                                           $10,456,473

                        Audit reports issued                                              115

                        Referrals for criminal prosecution, civil
                        litigation, and administrative action                             261

Results Attained        Management decisions agreeing with audit
                        recommendations, civil settlements, and
                        court-ordered and investigative recoveries                   $99,326,549

                        Indictments and informations on criminal referrals                 28

                        Cases accepted for criminal prosecution                            32

                        Cases accepted for civil action                                    13

                        Successful criminal prosecutions                                   23

                        Civil settlements                                                   2

                        Contractors/individuals debarred                                    6

                        Contractors/individuals suspended                                  31

                        Employee actions taken on administrative referrals
                        involving GSA employees                                            15




                                                                        Office of Inspector General v
                         Executive Summary




                       This period we continued our work in addressing what we believe are the
                       major issues facing GSA. We worked to help improve Agency operations
                       by providing a variety of services, including program evaluations, contract
                       and financial auditing, management control reviews, investigative
                       coverage, litigation support in contract claims, civil fraud and enforcement
                       actions, and criminal prosecutions. In addition, we provided professional
                       assistance through enhanced consulting services and the use of alert
                       reports designed to quickly inform management of potentially serious
                       deficiencies or other concerns prior to completion of all analytical work
                       and formal report issuance.


                       Major Issues
                       In November 2000, we identified to members of the Congressional
                       leadership what we believe to be the most serious management
                       challenges currently facing the Agency. A summary of these issues is
                       provided on the inside front cover. This report highlights a number of
                       reviews that address some of these issues. These reviews are in the
                       areas of Federal facilities and personnel protection, information
                       technology, management controls, and aging Federal buildings. Our
                       efforts during this period focused on the following:

                       Protection of Federal Facilities and Personnel
                       The OIG continues to review GSA’s progress in improving the security of
                       Federal buildings and the individuals who occupy them. We performed a
Childcare protection   follow-up review of the Childcare Program to determine if all employees
                       of the GSA-licensed childcare centers received background clearances
                       before they were allowed to work. We found that although GSA has
                       made progress in strengthening its processes for helping to ensure that
                       personnel hired by childcare providers are properly screened and
                       undergo background checks, not all personnel have undergone proper
                       checks before beginning work. Additionally, the required time to complete
                       a background check remains unacceptably lengthy (page 2).

                       A previous facility and fire safety survey identified the need to install
                       sprinklers in a three-building complex leased by GSA. During a recent
    Fire safety        follow-up site visit, numerous safety system and structural deficiencies
                       were found. Such deficiencies included: the absence of building-wide
                       automatic sprinklers, smoke detectors, and visual fire alarms; a lack of
                       emergency power for fire pumps and elevators; inadequate stairwell
                       egress; and large volumes of paper and other materials stored in
                       hallways and stairwells. Because of these problems and concern for the
                       safety of the 2,500 Federal employees housed in this complex, an alert
                       report was issued for management’s immediate attention (page 4).




                                                                       Office of Inspector General vii
                                           Executive Summary




                                         We performed a review of the Federal Protective Service’s (FPS)
      Law enforcement                    Intelligence Sharing Program (ISP). The program was designed to
     information sharing                 develop strategic alliances with other Federal, state, and local law
                                         enforcement agencies as part of a criminal intelligence information
                                         network that provides information regarding potential threats to
                                         employees, customers, and GSA property. We found that FPS is not
                                         optimally managing the ISP since regional offices are operating
                                         autonomously with different levels of effort and personnel resources
                                         devoted to the program. As a result, FPS cannot ensure that it fully
                                         achieves its mission of providing a safe and secure environment in
                                         Federal facilities (page 5).

                                         We examined the management controls over smart cards – computer-
                                         readable cards for building access – at a regional office building. We
      Smart card controls                found that the existing controls did not prevent unauthorized access to
                                         Federal buildings by former employees and others. Our
                                         recommendations included keeping an updated, accurate, and
                                         manageable list of authorizing officials and other steps to assure proper
                                         controls were in place (page 6).

                                         Information Technology
                                         The Consolidated Appropriations Act of 2001 required us to review GSA’s
                                         Federal Internet sites to determine whether these sites were collecting
      Computer privacy                   personally identifiable information using a particular computer technology
                                         referred to as “cookies.” The review assessed over 100,000 Internet
                                         pages managed by GSA finding 15 Web portals where “persistent
                                         cookies” – those retaining data beyond a single computer session – were
                                         either currently being used or had been recently removed. We found that
                                         either the Web sites did not disclose appropriate privacy policy
                                         statements or such statements were weak in the areas of security
                                         intrusion and detection language. Also noted was that GSA did not have
                                         policies and procedures in place to direct the appropriate use of cookies
                                         or to ensure that personally identifiable information is adequately
                                         protected (page 7).

                                         In 1999, GSA began implementing an effort to standardize information
                                         technology hardware, software, and support for personal computer users
          IT support                     across the Agency. The program, called Seat Management, is aimed at
                                         improving performance and productivity and lowering overall technology
                                         costs. However, our review of Phase I of the program found that GSA
                                         was not able to effectively determine whether it should continue on to
                                         Phase II since performance measures relative to Agency mission and the
                                         efficient utilization of resources were lacking. We noted that GSA
                                         experienced challenges in four areas during Phase I including: cost



viii Semiannual Report to the Congress
                               Executive Summary




                             savings, uniform maintenance and IT support, communications, and
                             funding. Until such challenges are addressed, the Office of the Chief
                             Information Officer has postponed the implementation of Phase II for a
                             minimum of 6 months (page 9).

                             Management Controls
                             During a recent review, we found GSA does not always obtain adequate
                             advance funding prior to providing specialized support services to its high
Financial management         level national security Federal customers. As a result, GSA has
                             overspent 280 customer orders by a total of $6.4 million since Fiscal Year
                             (FY) 1993. Additionally, we found that GSA did not always attempt to
                             obtain additional funding for these overspent orders. Conversely, GSA
                             has approximately 500 customer orders, dating back to FY 1993, with
                             unused funding balances totaling over $7.9 million. Unless GSA informs
                             its customers of such unspent balances, they are not given the chance to
                             recoup the funds for alternative uses (page 10).

                             In FY 2000, GSA’s billings to Federal customers totaled $13.3 billion;
                             however, we found that amounts due from customers are growing and at
Billing/collection process   year’s end were in excess of $2.0 billion. GSA is concerned that these
                             amounts due are causing cash flow problems. GSA has taken positive
                             steps with the Defense Finance and Accounting Service to improve the
                             ordering, billing, payment, and collection processes between the
                             respective agencies. Similar efforts with other customers would be
                             beneficial (page 13).

                             GSA’s Logistics Operations Center runs four distribution facilities. We
                             performed a review on one of the four Distribution Centers to determine
                             whether the most cost-effective carriers were selected to deliver supplies
  Transportation costs       to its customers. While we found that the center was selecting the most
                             cost-effective carriers, we noted that overpayments were made to one of
                             the small package carriers. The small package carrier acknowledged
                             overcharges were made in error; however, the Distribution Center failed
                             to detect these improper charges before certifying the invoices for
                             payment. We recommended that Agency management: review all future
                             carrier billing statements for accuracy; ensure GSA receives credit for
                             incorrect billings; and verify whether the carrier made similar mistakes in
                             billings at any of the three other Distribution Centers (page 14).

                             Aging Federal Buildings
                             GSA obtains construction services for repairing and remodeling public
                             buildings under its repair and alteration (R&A) program by contracting
    Buildings repairs        with the private sector. We performed a review of 10 R&A projects
                             completed in FY 1998 and 1999 with contract values of $142 million.
                             Change orders to these projects were valued at nearly $53 million, a cost
                             growth of 37 percent. To better manage these projects and control costs,

                                                                             Office of Inspector General ix
                                        Executive Summary




                                      the Agency has promoted the Construction Excellence Program which
                                      aims to deliver the highest quality construction for the best value. While
                                      we found that renovation project teams are involving tenant agencies in
                                      defining project goals, design, and schedule, the teams are not
                                      documenting the delays and increased costs caused by the tenant
                                      agencies. Our recommendations to Agency management included
                                      continuing the Construction Excellence Program initiatives and improving
                                      change order management (page 15).


                                      Procurement and Related Activities
                                      A central part of the OIG’s work is to support the Agency’s contracting
                                      officers and to protect the integrity of GSA’s procurement programs and
                                      operations by detecting and preventing fraud, waste, and abuse.

                                      As a result of our audit and legal work, Gateway 2000, Inc., a computer
         Civil recovery               manufacturer, agreed to pay $9 million to resolve potential civil liabilities
                                      under the False Claims Act (page 18).

                                      GSA has been very active in trying to control and reduce the energy costs
                                      of its Federal agency customers. For example, GSA, along with other
                                      Federal agencies in the Pacific Rim area, entered into an agreement with
        Energy reviews                the Bonneville Power Administration to purchase electricity which has
                                      saved its Federal customers almost $4 million. However, this agreement
                                      expires in April 2002, at which time the Agency may be exposed to the
                                      volatility of market-based pricing presently occurring throughout
                                      California. If prices remain at today’s levels, GSA’s electrical energy
                                      costs will increase dramatically (page 19). In other energy reviews, we
                                      found that GSA was being billed for various state and local utility taxes
                                      and other charges from which it is specifically exempt. We recommended
                                      that GSA review its utility bills to ensure it is not paying for these exempt
                                      charges. We also recommended that GSA conduct annual rate reviews
                                      to ensure that utility companies are billing GSA the most economical rate
                                      available for its individual buildings (page 20).

                                      GSA relies on contractors to maintain accurate equipment inventories,
                                      formulate preventive maintenance schedules, and properly perform
   Equipment maintenance              mechanical maintenance on equipment such as heating and air
                                      conditioning equipment and elevators. Our review found inaccurate
                                      equipment inventories and incomplete performance in the preventive
                                      maintenance services. We concluded that GSA needs to clearly identify
                                      the responsibility for inventories and preventive maintenance programs
                                      and monitor quality control plans submitted by the contractors (page 21).




x Semiannual Report to the Congress
                            Executive Summary




                          As a result of an OIG investigation, Morse Diesel International, Inc. (MDI),
Construction contractor   a multinational construction services firm, was charged with and pled
    prosecutions          guilty to making a false claim involving double billing for performance and
                          payment bonds in connection with a major courthouse construction
                          project. MDI received and has paid a $500,000 fine. GSA proposed MDI
                          and six of its employees for debarment from Federal contracts. The
                          Agency subsequently lifted the debarment action against the company;
                          the action against the employees remains pending (page 22). Another
                          investigation, conducted jointly with other law enforcement agencies,
                          resulted in the conviction of two executives of ABC Project Management,
                          Inc., for submitting fraudulent bid, performance, and payment bonds to
                          the Government. The company and both executives were debarred from
                          Federal contracting by the Department of the Army (page 23).


                          Partnering with GSA Management
                          At the request of GSA management, we continued to provide consulting
                          services to review business practices and make recommendations for
                          improving operations across a wide range of GSA activities in all Agency
                          components.

                          We assessed the process for awarding and administering contracts to
                          supplement personnel in one region (page 24); reviewed contractor
                          performance for facility management at a Federal Courthouse and made
                          suggestions concerning contract administration to Agency management
                          (page 24); and analyzed contract documentation to determine if the
                          Agency was being properly billed (page 25). In addition, we issued
                          advisory reports concerning a proposed procedure for paying vendors
                          without requiring a receiving report (page 25) and concerning best
                          practices among various public and private sector entities in issuing
                          annual reports (page 26).

                          The OIG provided value-added professional assistance to GSA through
                          participation in Agency project teams, task forces, and working groups.
                          We provided input to the task force established to develop performance
                          measures for FSS’s Office of Acquisition (page 27). We continued to
                          participate in a project team to address courthouse occupancy issues
                          (page 27), and to oversee the renovation of a Federal building (page 27).
                          We also reviewed policy changes on an Agency building delegation
                          program (page 27). In addition, we participated on two work groups to
                          establish a coordinated ongoing process concerning improper purchase
                          and travel card activity (page 28), and to assist other agencies in
                          developing procedures to file for fuel tax refunds (page 28). We
                          participate in the Information Technology (IT) Council which discusses
                          information technology issues relevant to GSA (page 28).



                                                                          Office of Inspector General xi
                                          Executive Summary




                                        The OIG participates in a number of interagency committees and working
                                        groups that directly affect our ability to add value to the Agency. For
                                        example, we are a member of the PCIE IT Roundtable, and PCIE IT
                                        Security and Audit Workforce working groups (page 28). We also
                                        participate in the Procurement Executives Council (page 28).


                                        Other Criminal Investigations
                                        This reporting period, one GSA computer specialist was terminated and a
                                        co-worker suspended for the roles they played in gaining unauthorized
                                        access to confidential GSA electronic mail files (page 30). We completed
                                        an investigation that resulted in a former GSA official pleading guilty to
                                        soliciting a bribe from a GSA construction contractor in return for the
                                        award of repair and renovation contracts (page 31). In addition, a former
                                        GSA contract guard, assigned to the immigration area of a Federal
                                        building, pled guilty to charges of bribing an Immigration and
                                        Naturalization Service official (page 31).


                                        Summary of Results
                                        The OIG made over $77 million in financial recommendations to better
                                        use Government funds; made 261 referrals for criminal prosecution, civil
                                        litigation, and administrative actions; reviewed 183 legislative and
                                        regulatory actions; and received 1,087 Hotline calls and letters. This
                                        period, we achieved savings from management decisions on financial
                                        recommendations, civil settlements, and investigative recoveries totaling
                                        over $99 million. (See page v for a summary of this period’s
                                        performance.)




xii Semiannual Report to the Congress
                               OIG Profile




                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by
                      Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities.
                      Our components include:

                      • The Office of Audits, an evaluative unit staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations
                        through program performance reviews, management controls
                        assessments, and financial and compliance audits. The office also
                        conducts external reviews in support of GSA contracting officials to
                        ensure fair contract prices and adherence to contract terms and
                        conditions. The office additionally provides advisory and consulting
                        services to assist Agency managers in evaluating and improving their
                        programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper
                        activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal
                        advice and assistance to all OIG components, represents the OIG in
                        litigation arising out of or affecting OIG operations, and manages the
                        OIG legislative/regulatory review functions.

                      • The Internal Evaluation Staff, a multidisciplinary staff that plans and
                        directs field office appraisals and conducts internal affairs reviews and
                        investigations.

                      • The Office of Administration, an in-house staff that provides
                        information systems, budgetary, administrative, personnel, and
                        communications services.

Office Locations      The OIG is headquartered in Washington, D.C., at GSA’s Central Office
                      building. Field audit and investigation offices are maintained in Boston,
                      New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, and Washington, D.C. Sub-offices are also maintained in
                      Auburn and Cleveland.

Staffing and Budget   As of March 31, 2001, our on-board strength was 275 employees. The
                      OIG’s FY 2001 budget is $34.4 million.




                                                                       Office of Inspector General 1
                                              Major Issues




                                      The OIG is committed to helping to address major management issues
                                      facing GSA. We identified and shared with Congress and management
                                      issues that present key challenges to the Agency. We made
                                      recommendations in several major areas that GSA management needs to
                                      take steps to address. It is our mission to assist management in
                                      improving Agency operations.

Significant OIG                       Protection of Federal Facilities and Personnel
Accomplishments                       Childcare Center Security
                                      There are over 110 childcare centers in GSA-managed space throughout
                                      the United States, with an enrollment of over 7,700 children. In addition
                                      to providing the space for the centers, GSA is responsible for the utilities,
                                      furnishings, and equipment, and works with the Federal agencies and
                                      independent Boards of Directors to select the childcare providers to
                                      operate the centers. Typically, the Board contracts with the providers and
                                      is responsible for ensuring that the providers comply with the terms and
                                      conditions of the GSA License Agreement.

                                      Public Law 101-647 requires that personnel employed at childcare
                                      centers in Federally-controlled space be subjected to criminal history
                                      background checks. The background checks are to be based on a set of
                                      the employee’s fingerprints obtained by a law enforcement officer and on
                                      other identifying information. The checks are conducted through the
                                      Federal Bureau of Investigation (FBI) and state criminal history
                                      repositories of all states in which an employee, or prospective employee,
                                      has resided. The law allows an uncleared worker to be provisionally
                                      employed if within the sight and under the supervision of a staff person
                                      whose background check has been completed. However, current GSA
                                      policy states that no employee will be allowed to work in the centers
                                      unless a preliminary “name check” has been satisfactorily completed and
                                      the required documentation (Statement of Personal History and fingerprint
                                      cards) has been received by the regional Federal Protective Service
                                      (FPS) office. The “name check” is a quick preliminary screening using
                                      the FBI’s National Crime Information Center (NCIC) Interstate
                                      Identification Index and wanted person files.

                                      As a result of concerns expressed in a 1995 OIG audit report, the
                                      Childcare Program, primarily the criminal background issue, had been
                                      identified as a material weakness in GSA’s 1995 through 1998 Federal
                                      Managers’ Financial Integrity Act Reports. Management reported in 1999
                                      that corrective actions had been completed. The primary objective of our
                                      current review was to determine if the actions implemented corrected the
                                      prior weakness, if all employees of the GSA-licensed childcare centers
                                      received background clearances before they were allowed to work, and if
                                      not, why.



2 Semiannual Report to the Congress
                            Major Issues




                    Protection of Federal Facilities and Personnel (continued)

                    Based on our review of 37 childcare centers in four regions, we
                    determined that GSA has greatly strengthened its processes and systems
                    designed to ensure that personnel hired by childcare providers are
                    properly screened and undergo background checks. All childcare centers
                    reviewed had some employees who had undergone criminal background
                    checks, whereas our previous audit showed about one-third of the
                    reviewed centers had no personnel who had undergone the background
                    check.

                    Despite the improvements, the time lapse before the background checks
                    are completed remains unacceptably lengthy because of a number of
  The time lapse    bottlenecks in the process. For example, some childcare centers are
before background   slow to obtain and submit the applicant’s paperwork, sometimes allowing
                    a worker to be on the job for a period of months without any background
    checks are      check having been performed. Center Directors were not aware of
completed remains   particular requirements, including the need for volunteers to be cleared
   unacceptably     and the requirement that new-employee fingerprints and personal history
                    forms be submitted before the worker starts on the job. GSA Regional
     lengthy.       Childcare Coordinators do not adequately monitor and enforce the
                    background check requirements. Finally, FPS is not processing the
                    paperwork as quickly as possible.

                    In addition, the License Agreement between GSA and the childcare
                    provider is vague regarding the criminal history background check
                    requirements. While the agreement refers to the background checks, it
                    does not identify the specific requirements.

                    In our November 14, 2000 report, we recommended to the
                    Commissioner, Public Buildings Service that the:

                    National Director of Childcare Operations:

                    • Incorporate specific background check requirements into the License
                      Agreement.

                    • Require Childcare Center Directors to obtain the data necessary to
                      initiate the “name check” prior to, but no later than, the first day of
                      employment.

                    • Establish a clearance package monitoring system.

                    • Develop a Statement of Personal History form applicable to childcare
                      employees only.




                                                                      Office of Inspector General 3
                                              Major Issues




                                      Protection of Federal Facilities and Personnel (continued)

                                      Assistant Commissioner, Federal Protective Service:

                                      • Require regional FPS offices to establish procedures to ensure that
                                        fingerprinting is done expeditiously.

                                      • Process the “name check” as soon as data is received, or request
                                        unrestricted access to the NCIC system.

                                      • Direct the appropriate organizational elements to generate reports of
                                        childcare employees requiring background check updates and forward
                                        them to the relevant Regional Childcare Coordinator for action.

                                      A responsive management action plan was provided for implementing the
                                      report recommendations.

                                      Fire Safety Deficiencies
                                      Current law prohibits the use of funds for the lease of Federal employee
                                      office buildings over a certain size unless the buildings have automatic
       Fire safety                    sprinkler systems or an equivalent level of safety. As part of our ongoing
  deficiencies require                review of GSA’s Safety and Fire Prevention Practices, we visited a three
                                      building complex leased by GSA for another Federal agency. These
       immediate                      buildings, which house approximately 2,500 Federal employees, are of a
        attention.                    size requiring the above level of protection. However, during our recent
                                      site visit, we found numerous safety system and structural deficiencies,
                                      including: the absence of building-wide automatic sprinklers; no smoke
                                      detectors or visual fire alarms; a lack of emergency power for fire pumps
                                      and elevators; and inadequate stairwell egress. We also noted large
                                      volumes of paper and other materials being stored in hallways and
                                      stairwells, all of which could significantly compromise the safety of the
                                      buildings’ occupants, contents, and structures.

                                      We issued an alert report to the Regional Administrator on January 9,
                                      2001 because the significance of these concerns warranted
                                      management’s immediate attention. Given the gravity of the matter, we
                                      requested that management provide written comments on the actions it
                                      has taken or plans to take to address these concerns. We also advised
                                      management that the subject matter may be addressed further in our final
                                      audit report on GSA’s safety and fire prevention practices.

                                      Management’s response indicated concurrence with our conclusions that
                                      the risk to the buildings’ occupants must be mitigated. GSA has already




4 Semiannual Report to the Congress
                           Major Issues




                   Protection of Federal Facilities and Personnel (continued)

                   taken actions to initiate the installation of an automatic sprinkler system
                   and a partial smoke detection system in these buildings. Additionally, the
                   Agency has notified the proper Fire Marshal’s office, which should
                   facilitate the correction of the many safety issues.

                   FPS Intelligence Sharing Program
                   The Federal Protective Service (FPS) started the Intelligence Sharing
                   Program (ISP) based on recommendations of the Department of Justice,
                   which stated that agencies involved in providing security must be part of a
                   comprehensive intelligence process. The intent of the ISP was to develop
                   strategic alliances with other Federal, state, and local law enforcement
 Improvements      agencies as part of a criminal intelligence information network. This
 needed in FPS     network would be designed to provide information regarding potential
intelligence and   threats to employees, customers, and GSA property.
     criminal      We concluded that FPS is not optimally managing the ISP. This is
  investigative    because the regional offices are operating autonomously with different
    programs.      levels of effort and personnel resources devoted to the program. As a
                   result, FPS has no means to ensure that it fully achieves its mission of
                   providing a safe and secure environment in Federal facilities. We noted:

                   • The overall FPS criminal investigative program, first reported in a July
                     1997 OIG audit, continues to reside in a fragmented organization with
                     varying degrees of regional management support, resulting in
                     imbalanced staffing allocations.

                   • Operational issues are impacting the day-to-day success of the
                     program including: program guidelines not being distributed to all
                     agents, a lack of clear direction on specific concerns of agents, and a
                     need for improved exchange of information between the regions and
                     Central Office.

                   • Participation in task forces and other intelligence-related groups has
                     been inconsistent among regions.

                   • Limited resources and inconsistent approaches could adversely impact
                     the Regional Threat Assessments, an offshoot of the ISP, designed to
                     provide a systematic review and analysis of the major threats facing
                     each region and prioritizing the greatest threats.




                                                                    Office of Inspector General 5
                                              Major Issues




                                      Protection of Federal Facilities and Personnel (continued)

                                      In our March 23, 2001 report, our recommendations to the Acting
                                      Assistant Commissioner, Federal Protective Service, included taking
                                      action to:

                                      • Commission a resource allocation study to determine how to best
                                        address regional criminal investigative staffing needs and
                                        inconsistencies.

                                      • Conduct follow-up training at the Federal Law Enforcement Training
                                        Center to focus on agent concerns relative to daily ISP responsibilities.

                                      • Have the Federal Bureau of Investigation’s Joint Terrorism Task Force
                                        members conduct a presentation on actual GSA-related case
                                        experience for the benefit of regional officials who have been reluctant
                                        to allow such task force participation.

                                      Management officials agreed with our recommendations in the report.
                                      The audit is still in the resolution process.

                                      The 106th Congress considered legislation which would have
                                      restructured FPS to enhance direct line authority between GSA Central
                                      Office and the various regions. On November 17, 2000, the GSA
                                      Administrator, in response to this legislative initiative, issued an order that
                                      placed the regional FPS Directors under the direct control of the FPS
                                      Assistant Commissioner. This should help facilitate the improvements
                                      that we recommend. The criminal intelligence database has been
                                      restructured to function as a centralized and networked system
                                      accessible by all regions, and will facilitate the capture of valuable
                                      intelligence information.

                                      Controls Over Smart Cards
                                      A smart card has a computer microchip embedded in a plastic card the
                                      size of a standard credit card. These cards can be used for access,
    GSA’s controls                    identification, travel, and other applications. As the Government
   over the issuance                  continues implementation of smart cards, it is imperative that adequate
                                      controls are set up and maintained to ensure the cards are being used
    and retrieval of                  properly and by the persons authorized to use them.
    smart cards are
                                      Since 1996, GSA has been developing and implementing in-house smart
       deficient.                     card programs. We initiated this review to assess the management
                                      controls over smart cards at one regional office building. In this building,
                                      these cards are used primarily as a visual identification card to enter the
                                      building during regular working hours. However, the building can be
                                      accessed at anytime after hours via one of the entrances equipped with a
                                      smart card reader.

6 Semiannual Report to the Congress
        Major Issues




Protection of Federal Facilities and Personnel (continued)

The region issues smart cards to employees of GSA, another Federal
tenant, and contractor employees of both agencies. We found flaws in
the region’s management controls to ensure smart cards are issued with
the proper authorization. This is due, in part, to the large number of
authorized approving officials and lack of formally documented
procedures. We also found that controls are deficient for smart card
retrieval upon a building occupant’s departure. These deficiencies have
enabled some former employees to retain possession of their smart cards
and to improperly gain access to the building.

GSA is making efforts to implement a more encompassing set of
procedures regarding smart card issuance, retrieval, and disposal within
the region. However, we do not believe that these procedures, as
drafted, will be sufficient to correct the discrepancies regarding smart card
retrieval and deactivation.

The ultimate responsibility for building access, security, and control
resides with GSA. Regardless of who the occupants are, GSA is
responsible for overall building security. Additional steps need to be
taken to ensure that only appropriate personnel gain access to the
building.

In our March 21, 2001 report to the Acting Regional Administrator, we
recommended that:

• Steps be taken to ensure that the listing of authorized officials is
  updated, kept accurate, and contains a manageable number of names.
  This listing should be used to verify all smart card applications.

• Procedures for incoming and outgoing personnel be amended to
  include any occupant of GSA-controlled space, not just GSA
  employees.

Management officials agreed with the recommendations in the report. The
audit is still in the resolution process.

Information Technology
GSA’s Use of “Cookies”
The Consolidated Appropriations Act of 2001 requires OIGs to report on
their agencies’ use of Federal Internet sites to collect or review personally
identifiable information through the use of “cookies.” A cookie is a small
text file that is placed on a consumer’s computer hard drive by a Web
server. Web sites use both session and persistent cookies. Session
cookies are stored temporarily in the random access memory of the


                                                  Office of Inspector General 7
                                              Major Issues




                                      Information Technology (continued)

                                      user’s computer, used only during the browsing session, and destroyed
                                      when the user exits the Web browser. Persistent cookies, however,
                                      remain stored on the user’s computer until specified expiration dates.
                                      These cookies provide information on the technical activities for an
                                      individual user’s computer and do not necessarily themselves contain
                                      personally identifiable information. Personal information, such as an
                                      individual’s name, e-mail address, postal address, telephone number,
                                      social security number, or credit card number must be voluntarily provided
                                      by individuals before it can be linked to information that is collected
                                      automatically with cookies technology. With the widespread use of the
                                      Internet, concerns have been raised with the Federal Government’s use
                                      of the cookie technology on its Web sites.

                                      In our review of the Appropriations Act reporting requirement, we
                                      searched over 100,000 GSA Web pages and located over 800 Web
                                      portals operated by GSA. We found 15 Web portals containing persistent
                                      cookies that are currently being used, or were recently removed because
                                      of specific concerns with the possibility of using cookies technology to
                                      gather personally identifiable information over a prolonged period of time.
                                      We also found a third party agreement with a vendor permitting the
   “Cookies” found                    collection of personally identifiable information at one GSA Web site
                                      where persistent cookies were in use.
   on 15 GSA Web
        sites.                        Although Office of Management and Budget (OMB) guidance states that
                                      every Federal Web site must include a privacy policy statement to inform
                                      visitors to the site about how the agency handles any information that is
                                      collected through the site, we found that GSA officials had not disclosed
                                      appropriate privacy policy statements for 4 of the 15 Web sites. The
                                      privacy statements for the remaining 11 Web sites were weak in the areas
                                      of security intrusion and detection language. In addition, GSA does not
                                      have policies and procedures in place to direct the appropriate use of
                                      cookies or to ensure that personally identifiable information is adequately
                                      protected.

                                      Based on a review conducted by the GSA Office of the Chief Information
                                      Officer (CIO) in October 2000, the Agency Administrator approved the use
                                      of persistent cookies on seven Web sites identified by the CIO. However,
                                      the list of cookies identified in October differs significantly from what we
                                      found. Only 3 of the 7 Web sites tested positive for cookies, but we
                                      found 12 additional Web sites with persistent cookies. These additional
                                      sites have not obtained approval from the GSA Administrator, as
                                      recommended in OMB policy guidance, and have not provided a
                                      business case that identifies a compelling need for using these cookies.
                                      Persistent cookies on six Web sites were subsequently removed as a
                                      result of our review.

8 Semiannual Report to the Congress
                               Major Issues




                       Information Technology (continued)

                       Seat Management
                       For a number of years, GSA’s personal computer and related technology
                       equipment has been a mixture of system types, categories, and
                       manufacturers, which varied among and even within Agency services and
                       staff offices. The diversity in design and capabilities led to significant
                       added costs in support and maintenance, as well as to difficulties in
                       developing desktop and software standardization. As the need arose to
                       connect one computer to another throughout GSA, the local area network
                       (LAN) evolved without a specific design or comprehensive plan.

                       GSA began the implementation of Seat Management in 1999 with the
                       stated intention of standardizing the Agency’s information technology (IT)
 Seat Management       infrastructure; reducing support, maintenance, and training costs; and
  Phase I results      improving performance and productivity of the desktop users. Our review
    show some          of Phase I, a 3 year, $34 million effort which provides services for
                       1,160 desktop and laptop computers, found that GSA was not able to
problems–missing       effectively determine whether it was successful enough to continue to
   performance         Phase II, which is intended to expand services to the GSA Regional
  measures make        Offices. This is because performance measures relative to Agency
                       mission and the efficient utilization of resources were lacking. Instead,
assessing program      performance measures were designed for specific contractor performance
 benefits difficult.   points, such as the availability of personal computers and the response
                       time for the help desk to answer calls.

                       GSA, therefore, had to rely on users’ comments, which were generally
                       favorable about the equipment. Users, however, found problems with the
                       contractually defined response time. Where they once were able to
                       obtain immediate response to concerns, they now had to wait up to
                       4 hours, in accordance with contract provisions. In addition, a stated
                       response time objective of Seat Management was to enable GSA LAN
                       managers to perform other duties as day-to-day maintenance
                       requirements were shifted; however, these duties were not always well
                       defined.

                       GSA experienced challenges in four main areas during Phase I of Seat
                       Management implementation:

                       • While a program objective was to reduce overall costs, costs have not
                         been quantified, and costs may be even higher under Phase II.

                       • More uniform maintenance and IT support were planned, but not all
                         users and technicians readily adjusted to the new delivery methods.




                                                                       Office of Inspector General 9
                                               Major Issues




                                       Information Technology (continued)

                                       • Problems have been encountered because of ineffective
                                         communications among GSA, the contractor, and the users.

                                       • Decentralized funding makes it more difficult for the Agency to
                                         implement the program and to act cohesively, at either the Service
                                         level or across the regions, regarding IT business solutions.

                                       Because of these challenges, the Office of the Chief Information Officer
                                       (CIO) stressed additional standardized processes were needed for a
                                       smoother transition to Seat Management, and accordingly, postponed
                                       plans for Phase II implementation for a minimum of 6 months.

                                       We agree that it is appropriate to assess these major issues and to
                                       sharpen the Agency’s approach before expanding implementation. We
                                       intend to monitor future progress and perform additional work as needed
                                       in the future.

                                       Management Controls
                                       Information Security Support Services
                                       GSA provides specialized support services to Federal agencies with high
                                       level national security, defense, diplomatic, and communications
                                       missions, and develops Government policy on information security
                                       matters. The Agency provides recurring monthly maintenance and repair
                                       work, time and materials work, and acquisition and installation of
                                       equipment on a reimbursable basis. Until recently, GSA provided these
                                       services on an advance billing basis, with the requesting agency
                                       obligating and disbursing its funds prior to the start of work by GSA.

                                       During a recent review, we found that GSA does not always obtain
                                       adequate advance funding before providing information security goods
   The IT Fund was                     and services to its customers, and therefore, spent $6.4 million more than
     used to pay                       it had collected on 280 customer orders since FY 1993. These
    $6.4 million for                   expenditures have been paid using reserves from the Information
                                       Technology (IT) Fund. GSA did not always attempt to obtain additional
      overspent                        funding for these orders, nor did management define a point at which
   customer orders.                    overspent amounts were to be declared uncollectible. GSA’s billing
                                       system allowed income to be recognized before the actual receipt of
                                       payment. Because the Agency did not obtain additional funding from the
                                       purchasing agencies, GSA’s income was overstated in previous years.

                                       Conversely, GSA has approximately 500 customer orders, dating back to
                                       FY 1993, with unused funding balances totaling in excess of $7.9 million.




10 Semiannual Report to the Congress
       Major Issues




Management Controls (continued)

Unless GSA promptly informs its customers of the unspent balances, the
customers, who are funded by yearly appropriations, are not given the
opportunity to recoup and reprogram these funds for alternate uses.

In addition, GSA regularly transferred funds between orders, often to
offset the overspent orders, without always ensuring that transfers were
between orders having a similar purpose and scope. GSA may only use
a customer Agency’s funds for purposes that address the same legitimate
need cited in the original interagency agreement, which serves as the
obligating document.

In our March 23, 2001 report to the Commissioner, Federal Technology
Service, we recommended:

• Prompt resolution of customers’ orders with overspent and excess
  funds.

• Development of written policies establishing proper procedures for
  incurring obligations.

• Development of an order management system.

• Assurance that orders accepted represent current legitimate needs of
  the customer agencies.

• Development of written policies on procedures to be followed if a
  customer’s order is completed and excess funds remain.

• Development of an employee training program covering the statutory
  basis for GSA’s Governmentwide information technology programs.

• Assurance that transfers of funds between orders occur only between
  those orders addressing the legitimate need that was present at the
  time of the initial obligation.

We concluded that GSA lacks sufficient controls to ensure that funds,
available as reimbursement for services provided customer agencies, are
reasonably protected. We also concluded that the control environment,
as presently constituted, does not provide reasonable assurance that
fraudulent misapplication of customer agency funds will be prevented.
We noted the existence of customer accounts, containing large sums of
money, that had been inactive for a considerable amount of time; and
further noted that customers were not aware of these unused funds.




                                              Office of Inspector General 11
                                               Major Issues




                                       Management Controls (continued)

                                       We had issued an alert report on November 29, 2000 to advise
                                       management of our concerns in this matter that we believed warranted
                                       immediate attention. In response to that report, management developed
                                       a preliminary action plan. Generally, those actions are consistent with the
                                       recommendations cited in our March 23, 2001 report, with which
                                       management concurred. The audit is still in the resolution process.

                                       Ensuring Contractor Compliance with IFF Reporting Requirements
                                       The Federal Supply Service (FSS) Schedules Program, with sales of
                                       $15 billion in FY 2000, provides Federal agencies with a streamlined
                                       process for acquiring supplies and services, as well as a simplified
                                       process for contractors to sell to Government agencies under a single
                                       contract. To recover the costs of operating this Program, contractors are
                                       responsible for collecting a 1 percent industrial funding fee (IFF) that is
                                       built into the sales price remitted by user agencies. Contractors are then
                                       required to remit the fees collected to FSS on a quarterly basis.

                                       We reviewed one region’s efforts to monitor and collect the IFF. In order
  During a 2-month                     to facilitate enforcement of the reporting and remittance requirements,
                                       GSA representatives visit contractor sites to verify that the sales tracking
  period, 17 of 191                    system is identifying all FSS Schedules sales, and that the contractor is
   contractor site                     correctly reporting those sales to GSA. About 10 percent of these visits
  visits resulted in                   result in recovery of fees from unreported sales. During 2 months of
                                       2000, 17 of 191 visits resulted in dollar recoveries of more than $100,000.
  IFF recoveries of
      more than                        However, since GSA does not have the resources to visit all contractors
    $100,000 from                      annually, and to improve the effectiveness of contractor visits on a
                                       national basis, FSS hired a consultant to develop a plan for selecting
  unreported sales.                    contractors to visit. The sampling plan identified those contractors to be
                                       visited in FY 2001 for each region and will be used to develop a
                                       comprehensive plan for future years. While we are concerned that many
                                       large contractors in this region have not been included in the sample,
                                       regional management stated they intend to review as many additional
                                       contractors as possible after the required visits have been completed, as
                                       time and resources allow.

                                       So that the future comprehensive plan can be developed, the region is
                                       obligated to complete the requirements of the consultant’s sampling plan
                                       for FY 2001, which include reviews of contractors at all sales levels. As
                                       such, we had no recommendations in our January 31, 2001 report.




12 Semiannual Report to the Congress
                              Major Issues




                      Management Controls (continued)

                      Billing and Collection Processes for Federal Customers
                      GSA provides a variety of goods and services for nearly every
 Improvements in      department within the Federal Government. In FY 1999, GSA billings
                      totaled $13.1 billion; billings increased slightly in FY 2000 to $13.3 billion.
interagency billing   Accounts receivable at the end of FY 1999 amounted to $1.6 billion, while
   and collection     $2.0 billion was due at the end of FY 2000. Substantially all accounts
  needed to avoid     receivable are from other Federal agencies. GSA is concerned about the
                      cash flow problems in its funds that can result from receivables not being
     cash flow        collected timely and is working to resolve this issue.
problems for GSA
  revolving funds.    During our review of GSA’s billing and collection processes, we contacted
                      14 customer agencies. Although the customers generally expressed
                      satisfaction with GSA’s current practices, they were able to provide
                      suggestions for improving the process, such as including more
                      information on GSA bills and billing on a transaction-by-transaction basis.
                      The review results indicate that both GSA and its customers have room
                      for improvement in the areas of communication and information flow.

                      In an attempt to improve the payment of information technology billings,
                      GSA and the Defense Finance and Accounting Service (DFAS) formed a
                      Joint Solutions Team, and entered into a Memorandum of Understanding
                      (MOU) in November 2000. The MOU cites the communication and
                      information responsibilities of each organization and anticipates using the
                      features of the Department of the Treasury’s upcoming Intragovernmental
                      Payment and Collection (IPAC) System when implemented in June 2001.
                      The IPAC System will allow for transaction-by-transaction billing, which
                      should improve ordering, billing, payment, and collection processes for
                      both agencies and facilitate reconciliation of their business activities.

                      GSA should complete the action items identified by the DFAS/GSA Joint
                      Solutions Team and initiate solutions teams with its other Federal trading
                      partners. The work of the Team should also be used as a model to
                      improve billing and collection processes within the Agency’s three major
                      services.

                      Because GSA is working to improve its billing and collection processes,
                      through the Joint Solutions Team, our January 26, 2001 report does not
                      contain formal recommendations. We briefed the Chief Financial Officer,
                      his staff, and representatives of GSA’s service offices on the highlights of
                      our review results.




                                                                        Office of Inspector General 13
                                               Major Issues




                                       Management Controls (continued)

                                       Transportation Costs at a GSA Depot
                                       GSA’s Logistics Operations Center operates four distribution facilities in
                                       the United States to receive goods for stock, store the items in inventory,
                                       and ship them to customers. The Distribution Center located in one
                                       region had FY 2000 sales of about $200 million. This Center spent
                                       $13.7 million on outbound transportation to ship material to customers.
                                       The Center has a performance goal to keep direct operating costs below
                                       a certain level. Since outbound transportation costs are a significant
                                       portion of the direct operating costs, failure to control shipping charges
                                       could negatively impact achievement of the goal. The OIG performed a
                                       review to determine if the Distribution Center was using transportation
                                       carriers that provide economical services for outbound freight shipments.

                                       The review determined that the Distribution Center is generally selecting
                                       the most cost-effective carriers to deliver supplies to its customers. We
                                       noted, however, that overpayments, estimated to be about $64,000, were
                                       made to the predominant small package carrier during FY 2000. These
                                       occurred because the carrier inappropriately increased billing rates,
                                       applied special surcharges, and billed in duplicate. The Distribution
                                       Center failed to detect these improper charges before certifying the
                                       invoices for payment.

                                       We discussed these billing issues with carrier personnel, who
                                       acknowledged that the overcharges in question had been made in error.
                                       The carrier agreed to review billing statements for all four of the
                                       Distribution Centers and issue credits as appropriate.

                                       In our February 6, 2001 report, we recommended that the Director,
                                       Logistics Operations:

                                       • Direct the Distribution Center to review all small carrier billing
                                         statements for accuracy prior to certification for payment.

                                       • Ensure that GSA receives credit for the incorrect billings noted during
                                         our audit.

                                       • Require the other Distribution Centers to review the carrier’s billing
                                         statements to determine whether the noted billing problems occurred at
                                         those Distribution Centers as well, and recover any overpayments
                                         identified.




14 Semiannual Report to the Congress
                          Major Issues




                  Management Controls (continued)

                  Management officials agreed with our recommendations in the report.
                  The audit is still in the resolution process.

                  Aging Federal Buildings
                  Minimizing Cost Increases on Repair and Alteration Projects
                  Repairing, remodeling, and improving public buildings is a GSA function
                  intended to maintain the Federal building inventory and ensure an
                  acceptable level of customer satisfaction. GSA obtains these
                  construction services by contracting with the private sector under its
                  repair and alteration (R&A) program. Historically, GSA has experienced
                  significant cost increases in the R&A program and has identified contract
    Recently      change orders as a major contributing factor to this increase. These
                  change orders result primarily from unforeseen/differing site conditions,
   completed      tenant agency requests, and design deficiencies.
 modernization
    projects      Controlling cost increase on R&A projects is increasingly important given
                  the limited resources of the program. Despite a General Accounting
 experienced a    Office report in March 2000 stating that GSA faces a $4 billion backlog of
37 percent cost   R&A projects, only $671 million is available for the program in FY 2001.
  increase for
                  We reviewed 10 projects substantially completed in FY 1998 and 1999
change orders.    with a contract value of $142 million. Change orders for these projects
                  were valued at nearly $53 million, a cost increase of 37 percent. We
                  found that the primary causes for the cost increase were the same as
                  found in prior studies, that interior renovation projects experienced the
                  highest increase factor (up to 57 percent), whereas elevator and exterior
                  renovations were lowest, ranging from 3 to 11 percent.

                  GSA has identified areas where the construction program could be
                  improved and has recommended initiatives to reduce cost increase. The
                  Agency has been promoting the Construction Excellence Program, with
                  the goal of delivering the highest quality construction for the best value,
                  as one way to better manage these projects and control costs.

                  During our audit, we also reviewed projects at various stages of design
                  and construction to determine the extent that Construction Excellence
                  Program principles, practices, and initiatives were incorporated into the
                  projects. While we saw that project managers were incorporating some
                  of the initiatives to varying degrees, several initiatives had not been fully




                                                                    Office of Inspector General 15
                                               Major Issues




                                       Aging Federal Buildings (continued)

                                       implemented, which hinders the Program’s effectiveness. Some of our
                                       concerns were related to project delivery, procurement methods, and to
                                       Occupancy Agreements (OAs).

                                       • There are three main project delivery methods that project managers
                                         can use. The traditional design/bid/build method, where the
                                         construction contractor is selected after the Architect-Engineer has
                                         completed the design, is most often used by GSA to modernize
                                         building systems, perform façade work and renovate interior space.
                                         The other two delivery methods, design/build and construction
                                         manager as constructor, where the construction contractor is brought
                                         on board at different stages of project design to provide insight and
                                         expertise, are relatively new to GSA and are used less often than the
                                         traditional method. The latter methods of delivery should aid in the
                                         reduction of change orders for design changes and the related cost
                                         increase.

                                       • GSA has transitioned from the traditional past method of selecting
                                         contractors based on the lowest bid, with no consideration given to
                                         past performance. By adding additional performance criteria applicable
                                         to a specific project, the Agency may be able to establish project
                                         parameters and minimize cost increase.

                                       • OAs are used to involve the tenant agency in up-front decisions
                                         regarding project goals, design, schedule, and the appropriate delivery
                                         method. The renovation project teams are developing OAs, but are not
                                         documenting the tenants’ responsibilities for delays and increased
                                         costs caused by the tenant agency.

                                       We found that management can minimize unforeseen site conditions with
                                       preventive practices such as maintaining building drawings, funding up-
                                       front surveys and testing, and sharing lessons learned on prior projects.
                                       We also found that improper classification of change orders masks the
                                       root cause of the change, making it difficult to assess the cause and
                                       assign responsibility to the appropriate party. In addition, we noted that
                                       current performance measures neither consider all project costs nor
                                       emphasize project savings.

                                       Finally, we noted that some offices were not settling change orders
                                       issued as price-to-be-determined-later until after the work had been
                                       completed despite the Agency’s goal to do so before the work is
                                       50 percent complete. Timely settlement provides incentive for the
                                       contractor to accomplish work in the most efficient manner.




16 Semiannual Report to the Congress
       Major Issues




In our February 16, 2001 report, our recommendations to the Acting
Commissioner, Public Buildings Service included:

• Continuing to advocate the Construction Excellence Program
  initiatives.

• Improving change order management.

The Acting Commissioner agreed with the recommendations in the report.
The audit is still in the resolution process.




                                             Office of Inspector General 17
                              Procurement and Related Activities




                                       GSA is responsible for providing working space for almost 1 million
                                       Federal employees. GSA, therefore, acquires buildings and sites,
                                       constructs facilities, and leases space, and also contracts for repairs,
                                       alterations, maintenance, and protection of Government-controlled space.
                                       GSA also manages the transfer and disposal of excess and surplus real
                                       and personal property and operates a Governmentwide service and
                                       supply system. To meet the needs of customer agencies, GSA contracts
                                       for billions of dollars worth of equipment, supplies, materials, and services
                                       each year. We conduct reviews and investigations in all these areas of
                                       activity to ensure that the taxpayers’ interests are protected.

Significant OIG                        Over $9 Million in Civil Recoveries
Accomplishments                        During this period, the Government entered into 2 settlement agreements
                                       in which companies agreed to pay a total of over $9 million to resolve
                                       their potential civil liabilities under the False Claims Act. These
                                       agreements, negotiated by representatives of the Department of Justice
                                       and the GSA OIG, reflect the ongoing efforts of the OIG to pursue cases
                                       involving procurement fraud and other practices that threaten the integrity
                                       of the Government’s procurement process. Highlights of cases follow:

                                       Civil Settlements
                                       • On October 27, 2000, computer manufacturer Gateway 2000, Inc.
                                         (Gateway), agreed to pay $9,000,000 to settle the Government’s claim
                                         that it overcharged Federal customers for computer systems. The
                                         Government alleged that, contrary to the provisions of its Multiple
                                         Award Schedule (MAS) contract, Gateway charged customers the
                                         price of its product on the day it was ordered, rather than the often-
                                         lower price of the product on the day it was delivered or installed. The
                                         OIG audit had determined that the company had no system in place,
                                         during most of the contract, that would have insured that the repricing
                                         of its orders was in compliance with the requirements of the contract.

                                       • Back in February 1997, Gandalf Systems Corporation (Gandalf) had
                                         tentatively agreed to pay the United States $289,000 to resolve the
                                         company’s potential False Claims Act liability. The Government had
                                         alleged that Gandalf engaged in defective pricing in the negotiation of
                                         its 1987-1990 MAS contract to provide automated data processing
                                         equipment, and that it overbilled the Government in its administration
                                         of that contract. An OIG audit disclosed numerous instances of
                                         commercial customers receiving more favorable discounts, terms, and
                                         concessions than those disclosed in Gandalf’s response to the GSA
                                         solicitation. In addition, on numerous occasions, Gandalf charged
                                         Federal agencies state and/or local sales tax, from which the agencies
                                         are generally exempt under statute and regulation. However, before
                                         the settlement could be finalized, Gandalf went into bankruptcy, and



18 Semiannual Report to the Congress
                      Procurement and Related Activities




                             was unable to proceed with the settlement agreement. On March 15,
                             2001, the receiver-in-bankruptcy for Gandalf paid the United States
                             $57,800 to finally resolve the company’s liability in this matter.

                           Electric Utility Deregulation Challenges
                           Interagency Agreement
                           Deregulation of the electricity market in several states was intended to
                           introduce competition, spur innovation and economic growth, and
                           promote efficiencies in the electricity industry. In California, recent
                           developments have led to a shortage of electricity and sharp increases in
                           costs to consumers. During FY 2000, GSA paid about $22 million for
                           electricity provided to buildings under its cognizance in the Pacific Rim
                           Region, which includes California. GSA purchases its electricity from
                           investor-owned utility companies under area-wide contracts awarded by
                           GSA’s Public Utility Office in Washington, DC, or from municipal entities in
                           some cities.

                           GSA has mitigated high electricity costs by pooling energy needs with
                           other Federal agencies and entering into an interagency agreement to
  GSA has been             purchase electricity from the Bonneville Power Administration at a price
                           that varies with the open market but within a fixed floor and ceiling. While
very successful in         GSA continues to acquire 100 percent of its electricity requirements from
   meeting the             the California utility companies, Bonneville sells its electricity on the open
  challenges of            market on GSA’s behalf, and if the market price is above the ceiling, GSA
                           receives the credit. Although it has not happened, GSA’s costs could
 deregulation of           increase if the market price drops below the floor price. GSA has saved
  the electricity          about $3.8 million since the inception of this agreement in May 1998.
 market and has            However, the agreement, which represents 60 percent of GSA’s regional
                           electricity needs, expires in April 2002, at which time the Agency will be
saved $3.8 million.        exposed to the volatility of market-based pricing throughout the state,
                           without the benefit of rate freezes, which will have ended by that time.

                           In an aspect of our review, we noted that GSA may be exempt from
                           certain state and local utility taxes and surcharges and needs to ensure
                           that it only pays those it is required to pay. We found some taxes and
                           surcharges from which the Government was clearly exempt had been
                           paid. Individuals processing utility contracts and bills need to know which
                           charges are acceptable and which are exempted to avoid overpayment.
                           We found that individuals were not aware of specific exemptions and/or
                           did not review agreements and bills for these items.




                                                                            Office of Inspector General 19
                              Procurement and Related Activities




                                       In our March 15, 2001 report, we recommended that the Assistant
                                       Regional Administrator:

                                       • Develop a plan to competitively procure electricity in California by
                                         identifying GSA facilities and other entities willing to join in solicitations
                                         aggregating electricity demand.

                                       • Provide a reference list of utility taxes and surcharges that must be
                                         paid and those from which the Government is exempt to be used in
                                         reviewing utility bills.

                                       • Instruct contracting officials ordering utility services to routinely include
                                         provisions citing specific tax exemptions of the Government in initial
                                         orders for service.

                                       • Initiate recovery action for taxes and surcharges inappropriately paid.

                                       Management officials agreed in principle with our recommendations in the
                                       report. The audit is still in the resolution process.

                                       Competitive Electric Contracts
                                       In a review performed in three additional GSA regions, we found that the
                                       Agency has been successful in meeting the challenges of electric
                                       deregulation, with awards of several competitive contracts aggregating
                                       GSA’s power requirements with those of other Federal agencies, that
                                       have achieved savings of about $11 million for those participating in the
                                       GSA contracts. We noted, however, a need for improvement in the
                                       amount of review/supervision given to work conducted by contractors who
                                       prepare GSA to analyze offers and ultimately award competitive
                                       contracts.

                                       The level of controls exercised over the processing of monthly utility bills
                                       in the three regions generally provides reasonable assurance that the
                                       bills are accurate and do not include sales taxes for which the
                                       Government is exempt. We found surcharges on the utility bills; however,
                                       there was no review performed by GSA to determine the appropriateness
                                       of these items. We believe these surcharges should be identified and
                                       then researched for the possibility of obtaining refunds or credits due
                                       GSA.

                                       The review showed that the Agency is not conducting annual rate reviews
                                       to ensure that GSA buildings are receiving the most economical rate
                                       available from the utility company; nor is GSA complying with post-
                                       payment examination of utility bills, as proposed by the General
                                       Accounting Office.




20 Semiannual Report to the Congress
                     Procurement and Related Activities




                          In our January 11, 2001 report to the Commissioner, Public Buildings
                          Service, and Chief Financial Officer we recommended:

                          • Closer supervision and review of contractors and their work, especially
                            when the work is to be used in analysis of offers of potential contracts.

                          • Annual rate reviews of utility accounts with annual values exceeding
                            the simplified acquisition threshold ($100,000).

                          • That surcharges be identified then researched for the possibility of
                            obtaining refunds or credits due GSA.

                          A responsive management action plan was provided for implementing the
                          report recommendations.

                          Operating Equipment Inventories
                          In recent years, GSA has changed the manner in which operations and
                          mechanical maintenance contracts are procured and administered.
                          Rather than specifying the frequency, quantity, and type of activities to
                          perform, the new performance-based contracts GSA uses are supposed
                          to be results oriented. GSA now relies more on the contractor to maintain
                          accurate equipment inventories, formulate preventive maintenance
                          schedules, and properly maintain the equipment. Recent reviews by our
                          office have indicated some cause for concern that GSA is not getting
                          what it pays for. Inadequate equipment inventories was seen as a
                          potential problem area.

                          Our review in one region found inaccurate equipment inventories in
                          nearly half of the buildings visited. Accurate inventories are important
    Inaccurate            because they allow prospective contractors bidding on contracts to know
    equipment             what equipment they will be responsible for and form the basis for
                          preventive maintenance programs. Accurate inventories also provide an
inventories impair        exit checklist at contract end so that all equipment can be inspected and
    preventive            responsibility for needed repairs identified.
  maintenance.
                          More significantly, at every location visited, we found deficiencies in the
                          preventive maintenance schedules. Although these schedules were
                          being submitted monthly, we found that preventive maintenance was not
                          being performed because contractors were not following their quality
                          control programs and GSA representatives were not physically inspecting
                          the work performed. While these contracts were nominally written to
                          require contractors to prepare preventive maintenance schedules, lacking
                          appropriate oversight by GSA, some work does not get done.




                                                                          Office of Inspector General 21
                              Procurement and Related Activities




                                       Our March 27, 2001 report included recommendations that the Assistant
                                       Regional Administrator ensure that:

                                       • Responsibility for accurate equipment inventory, history records, and
                                         preventive maintenance programs be clearly identified.

                                       • Quality control plans submitted by contractors be monitored for
                                         compliance during the contract period with inspections of work
                                         performed.

                                       Management officials agreed with our recommendations in the report.
                                       The audit is still in the resolution process.

                                       GSA Courthouse Construction Contractor
                                       Convicted; Pays $500,000 Fine
                                       On December 12, 2000, Morse Diesel International, Inc. (MDI), a
                                       multinational provider of construction services, was convicted on a guilty
                                       plea of one count of making a false claim against the Government in
                                       connection with its GSA contract for the construction of the Thomas F.
                                       Eagleton Courthouse in St. Louis, Missouri. MDI was assessed and has
                                       paid a $500,000 fine.

                                       An OIG investigation of MDI found that MDI had provided a false invoice
                                       to GSA as part of a claim for payment on the Eagleton Courthouse. The
                                       criminal fraud involved double billing by MDI for its performance and
                                       payment bonds, which resulted in an increase of the overall contract price
                                       to GSA. A related civil fraud case against MDI is currently being litigated
                                       in the U.S. Court of Federal Claims by the Department of Justice, Civil
                                       Division, Commercial Litigation Branch. That case includes fraud
                                       allegations against MDI involving its GSA construction contracts for the
                                       Eagleton Courthouse, the U.S. Courthouse and Federal Building in
                                       Sacramento, California, and the U.S. Customs House in San Francisco.
                                       In addition to allegations regarding false invoices for performance and
                                       payment bonds on all three projects, the Government’s complaint also
                                       alleges fraudulent installation of defective doorframes and late payments
                                       to subcontractors on the Eagleton Courthouse contract.

                                       On January 25, 2001, the GSA Office of Acquisition Policy, based on the
                                       plea agreement, proposed MDI for debarment, effectively suspending the
                                       company from receiving new Federal contracts pending a final
                                       determination. On February 28, 2001, six of MDI’s current and former
                                       employees were also proposed for debarment based upon information
                                       developed in the investigation. (On April 30, 2001, GSA terminated the
                                       debarment proceeding against MDI based on the Agency’s determination
                                       of present responsibility. The action against the individuals remained
                                       pending.)


22 Semiannual Report to the Congress
Procurement and Related Activities




     Top Executives of a Project Management Company
     Sentenced for Submitting Fraudulent Bonds
     An OIG investigation was initiated when a GSA contracting officer
     reported that the president of ABC Project Management, Inc., may have
     submitted a fraudulent bid bond in response to a GSA solicitation for the
     renovation of a Federal day care center. The investigation confirmed the
     allegation and also found that the president had presented fraudulent bid
     bonds to the Port Authority of New York and New Jersey and several
     other Federal agencies.

     On October 20, 2000, the president of the company was sentenced to
     5 years supervised release and ordered to pay restitution in the amount
     of $259,370 for his role in submitting fraudulent bid, performance, and
     payment bonds to the Government.

     In addition, on December 5, 2000, the vice president of the company was
     sentenced in U.S. District Court to 12 months and one day of
     incarceration, 36 months supervised release, and ordered to pay
     restitution in the amount of $43,375 for his role in submitting fraudulent
     bid, performance, and payment bonds to the Government.

     The company and both executives are currently debarred from Federal
     contracting as a result of a Department of the Army action.

     This investigation was conducted jointly with the Federal Bureau of
     Investigation, the Port Authority of New York and New Jersey, and the
     Small Business Administration OIG.




                                                    Office of Inspector General 23
                               Partnering with GSA Management




                                       Value-Added Assistance Services
                                       We continued to offer value-added professional assistance to GSA
                                       management through consulting services and advisory reviews, and
                                       through participation on Agency improvement task forces, committees,
                                       and working groups. Our efforts help the Agency to become more
                                       efficient and effective by providing management with timely information,
                                       often at its request, to improve decision-making, program outputs, and
                                       mission accomplishment. These services are provided in addition to our
                                       more traditional services.

                                       Consulting Services. These OIG efforts are initiated by Agency officials
                                       and are designed to provide management with quick responses to
                                       specific program concerns. Requesting officials both define and limit the
                                       scope of the consulting project. Information objectively developed by the
                                       OIG is provided for the interpretation and discretionary use of the
                                       requesting official in a true partnering relationship with management.
                                       Additionally, consulting service products are distributed only to the
                                       requesting official and contain observations and alternatives for
                                       consideration in lieu of formal audit recommendations. Some recent
                                       efforts are highlighted below:

                                       • Use of Contracts to Supplement Personnel. Following a major
                                         reorganization, management asked us to assess the process for
                                         awarding and administering contracts to supplement personnel in one
                                         region. During our review, we observed some vulnerable areas, both
                                         procedural and organizational, where the region needs to consider
                                         revisions to its use of contract resources as it redefines its service
                                         delivery structure. In discussions with the contracting staff, we noted
                                         inconsistent practices and a lack of controls in obtaining the regional
                                         requirements for supplemental service contract personnel. In our
                                         November 15, 2000 report, we identified certain risks to the region’s
                                         efforts toward strengthening its contract resources and building greater
                                         consistency in its business operations. We suggested the region
                                         establish a centralized core procurement staff for certain awards.

                                       • Commercial Facility Management Contractor Performance. The
                                         Agency requested assistance in determining whether the contractor
                                         responsible for the day-to-day facilities operations at a Federal
                                         Courthouse was meeting the basic requirements of the contract, and if
                                         the contractor adequately administered and reported public realm
                                         activities at the Courthouse. Based on a review of contractual
                                         reporting requirements and tenant satisfaction feedback, we concluded
                                         that the contractor met basic performance requirements and
                                         adequately administered public sector activities. We also concluded
                                         that GSA should execute the upcoming 3-year option to extend the



24 Semiannual Report to the Congress
Partnering with GSA Management




      contract, which is valued at about $3 million. However, in our
      November 17, 2000 report, we suggested that management consider
      the following activities:

      • have someone with technical expertise periodically assess the
        contractor’s mechanical quality control practices;

      • develop mutually agreed-upon benchmarks for performance
        standards;

      • streamline monthly reporting to create an “at a glance” overview of
        building operations; and

      • use excess proceeds from private events to fund court and
        community-related event security costs.

    • Compliance with cost and billing terms of a contract. Management
      asked for our assistance in researching contract documentation to
      determine if the Agency was being properly billed. Due to a series of
      modifications that occurred over an extended period of time, the price
      of the contract had increased to $5.4 million and significantly changed
      in complexity. The OIG developed a summary schedule of GSA
      payments and a comparison of authorized expenditures to vouchered
      and paid costs. We concluded that the contractor had applied the
      proper labor and indirect expense billing rates in its voucher
      submissions to GSA and that total payments were less than the
      contract value. We provided this information to management in a
      November 27, 2000 report.

    Advisory Reviews. These OIG services are designed to develop
    information useful to Agency managers who are responsible for making
    decisions and initiating program improvements. Typically, we identify
    benchmarks and analyze best practices used in both private industry and
    Government agencies to determine if GSA is delivering comparable
    products and services as effectively as other provider entities. Advisory
    reviews are usually initiated by the OIG, although management may
    request them as well. Our reports provide observations and conclusions,
    without recommending corrective actions. The following highlights two
    such reviews accomplished during this period:

    • FTS Procedures for Paying Invoices without Receiving Reports.
      Due to a problem with obtaining information from client agencies, GSA
      is incurring significant levels of interest payments under the terms of
      the Prompt Payment Act. Management asked us to evaluate a
      proposed procedure for paying vendors without requiring a receiving
      report. We advised management that, at this time, we do not support
      the elimination of receiving reports because the Agency lacks internal
      controls to support the initiation of such a payment process. Our

                                                  Office of Inspector General 25
                               Partnering with GSA Management




                                         review of invoice processing procedures submitted by the regions
                                         showed that no standard exists on where the vendor is required to
                                         send its invoice, how the invoice is to be reviewed, or how receipt of
                                         the item is to be verified. While we concluded that the Agency needs
                                         to standardize operating procedures to reduce the levels of interest
                                         payments, we did offer an alternative procedure for management use
                                         as an interim measure. We issued our advisory report to the FTS
                                         Commissioner on November 17, 2000.

                                       • Best Practices for Annual Report Preparation. The Chief Financial
                                         Officers (CFO) Act of 1990 and the Government Management and
                                         Reform Act (GMRA) of 1994 require agencies to prepare and submit
                                         annual reports to the Office of Management and Budget (OMB). Under
                                         the guidelines of an OMB-sponsored “accountability report” pilot
                                         program, GSA expanded the coverage of its annual report to include
                                         information such as Government Performance and Results Act
                                         performance data. The CFO, concerned with GSA’s report process,
                                         asked the OIG what procedures other agencies used to coordinate and
                                         issue their annual reports in order to determine if future GSA reports
                                         could be completed more efficiently.

                                         We benchmarked with several public and private sector partners to
                                         identify best practices in this area. Although private sector reporting
                                         responsibilities required by the Securities and Exchange Commission
                                         differ from the evolving requirements imposed on Federal agencies,
                                         our focus was more on the process for publishing an annual report
                                         than on its contents.

                                         We observed that:

                                         • all of our benchmark partners assign responsibility for producing the
                                           annual report to a specific organizational component and delegate
                                           responsibility for the major parts to the components responsible for
                                           those functions;

                                         • firm deadlines are established and met;

                                         • the CFO is responsible for all financial aspects of the reports; and

                                         • marketing/communication departments prepare writeups on
                                           organization goals, objectives and strategies, and current
                                           accomplishments.

                                         Our advisory report was issued to the CFO on March 7, 2001.

                                       Task Forces, Committees, and Working Groups. The OIG provides
                                       proactive advice and counsel to GSA while monitoring ongoing Agency
                                       initiatives. Our representatives advise management at the earliest

26 Semiannual Report to the Congress
Partnering with GSA Management




    possible opportunity of potential problems, help ensure that appropriate
    management controls are provided when reinventing Agency systems,
    and offer possible solutions when addressing complex financial issues.

    Our direct participation with the Agency on task forces, committees, and
    working groups allows us to contribute our expertise and advice, while
    improving our own familiarity with the Agency’s rapidly changing systems.
    We also benefit by expanding our new initiatives within the Federal
    community. We nevertheless maintain our ability to independently audit
    and review programs. Our participation in the task forces is typically as a
    non-voting advisory member. We maintain a strict policy of excluding
    staff members who have served on developmental task forces from
    subsequent audits of the same subject areas.

    Some areas in which we have been involved this period include:

    • FSS Performance Measures Task Force. In August 2000, the OIG
      began participating in a task force established to develop performance
      measures for FSS’s Office of Acquisition. Our office has attended
      several task force meetings that included developing a measure for
      evaluating the effectiveness of contract pricing. We will continue to
      provide input to the task force as it finalizes performance measures for
      commercial acquisition.

    • St. Louis Courthouse Project Team. As the St. Louis Courthouse
      approaches full occupancy, the OIG has continued its participation in
      the Courthouse project team. Team meetings have been held on a
      periodic basis to address various building occupancy issues. As
      requested by members of the team, the OIG has performed, and
      continues to perform, audits of contracts that were awarded to
      complete construction.

    • Richard Bolling Federal Building Project Team. In response to a
      request from regional management, the OIG is participating on a
      project team assembled to oversee the renovation of a Federal building
      in Kansas City, Missouri. The renovation is scheduled to be performed
      in three phases over 5 years, and the total project cost is estimated to
      exceed $185 million. The team currently meets on an as-needed
      basis, but regular meetings will likely be held after the construction
      contract is awarded.

    • PBS Building Delegation Program. GSA holds monthly meetings
      with delegated agencies operating in both Government-owned and
      leased space to review and discuss current policies and practices and
      make any needed changes. Representatives of our office attend these
      meetings, at the request of the Agency, and provide input deemed
      appropriate.


                                                   Office of Inspector General 27
                               Partnering with GSA Management




                                       • Charge Card Usage Work Group. The OIG and Office of Finance
                                         met to establish a coordinated ongoing process for the prevention and
                                         detection of improper purchase and travel card activity by GSA
                                         cardholders. We recently developed and are now testing a guide for
                                         the effective review of charge card activity. When final, we will make it
                                         available to Agency officials responsible for reviewing and approving
                                         charge card use.

                                       • Fleet Users Work Group. Management requested our participation in
                                         the Fleet Users Work Group, the purpose of which is to assist other
                                         agencies in developing processes and procedures they could use to
                                         file for fuel tax refunds from state revenue departments. Future
                                         meetings will address Fleet card contractors’ processes and
                                         procedures. This initiative should continue through FY 2001.

                                       • The Information Technology Council. The Council monitors policies
                                         and programs to ensure information technology (IT) consistency
                                         throughout the Agency. It is comprised of the Chief Information
                                         Officers of the various GSA services and staff offices. Representatives
                                         from our office attend the meetings at the request of the Agency.

                                       The OIG participates in a number of interagency committees and working
                                       groups that directly affect our ability to better add value to the Agency.
                                       For example:

                                       • The President’s Council on Integrity and Efficiency (PCIE) IT
                                         Roundtable discusses various IT audit activities throughout the
                                         Inspector General community.

                                       • The Procurement Executives Council is an interagency council
                                         consisting of Executive Branch procurement executives. The Inspector
                                         General is the PCIE representative to the Council.

                                       • The PCIE IT Security and Audit Workforce working groups help to
                                         determine what types of security audits the OIGs should perform and
                                         what types of actions can be taken to recruit and retain IT-qualified
                                         staff.

                                       • We assisted the Office of Personnel Management with its development
                                         of a new occupational job series for the Federal IT workforce, with
                                         specific input on the inclusion of a new classification for IT auditors.

                                       • Our Assistant Inspector General for Auditing represents all civilian
                                         Government agencies on the Cost Accounting Standards Board, which
                                         promulgates, amends, and revises Cost Accounting Standards
                                         designed to achieve uniformity and consistency in cost accounting
                                         practices governing measurement, assignment, and allocation of costs
                                         to contracts with the Government.
28 Semiannual Report to the Congress
                            Prevention Activities




                           In addition to detecting problems in GSA operations, the OIG is
                           responsible for initiating actions to prevent fraud, waste, and abuse and
                           to promote economy and efficiency.

Significant Preaward and   The OIG’s preaward audit program provides information to contracting
Other Audits               officers for use in negotiating contracts. The pre-decisional, advisory
                           nature of preaward audits distinguishes them from other audits. This
                           program provides vital and current information to contracting officers,
                           enabling them to significantly improve the Government’s negotiating
                           position and to realize millions of dollars in savings on negotiated
                           contracts. This period, the OIG performed preaward audits of
                           55 contracts with an estimated value of nearly $541 million. The audit
                           reports contained over $67 million in financial recommendations.

                           This period, we audited Multiple Award Schedule (MAS) contracts and
                           claims for increased costs allegedly caused by the Government during
                           the construction of Federal buildings. Four of the more significant audits
                           contained proposed prices totaling $431 million, and recommended
                           adjustments of $49 million. An audit of a MAS contractor found that the
                           prices afforded the Government are substantially less favorable than the
                           prices given to the offeror’s other customers. In an audit of a claim for
                           increased electrical costs, we adjusted the subcontractor’s methodology
                           for measuring labor inefficiencies, and also advised the contracting officer
                           of overstatements in the amounts claimed for liquidated damages and
                           other direct costs. In an audit of a claim for increased costs due to a
                           differing site condition and design deficiencies, we advised the
                           contracting officer that field office costs were overstated and direct labor
                           hours and rates were incorrect. In another audit of a delay claim, we
                           adjusted the overhead and labor costs claimed by a subcontractor.

Federal Managers’          The Federal Managers’ Financial Integrity Act (FMFIA), Section 2,
                           requires GSA management to provide assurance to the President and the
Financial Integrity Act    Congress that Agency resources are protected from fraud, waste,
Review                     mismanagement, and misappropriation.

                           Each year, we review the Agency’s FMFIA process to assess its
                           completeness in reporting weaknesses and deficiencies. This year, the
                           Commissioner, Public Buildings Service, and the Chief Information Officer
                           did not submit timely assurance statements to the Management Control
                           Oversight Committee. Accordingly, their statements were not part of our
                           review. Therefore, we were unable to fully accomplish our objective of
                           assessing the adequacy of the disclosure of known control weaknesses
                           by Agency managers.

                           We advised management of several control weaknesses that should be
                           considered for reporting in the Administrator’s assurance statement. We
                           found problems under the Contract Guard Program that potentially


                                                                           Office of Inspector General 29
                                        Prevention Activities




                                       compromised the safety and protection of Federal employees, and raised
                                       concerns over the adequacy of security controls for critical assets and
                                       cyber-based infrastructures. We also found that agencies did not have
                                       adequate documentation ensuring that vendors received an opportunity to
                                       compete for vehicle acquisition and leasing services. Finally, we
                                       conveyed the results of a 2000 General Accounting Office report that
                                       concluded that GSA’s ability to satisfy the multi-billion dollar repair and
                                       alteration needs of Federal buildings is hampered by funding limitations,
                                       inadequate program data, and the lack of a strategic approach. All of
                                       these issues were identified in the Agency’s FMFIA report to the
                                       President, dated January 11, 2001. GSA has either initiated corrective
                                       action or is currently in the process of developing corrective action plans
                                       for the cited control weaknesses.

                                       We also advised management of two other matters, both of which were
                                       reported previously, where corrective actions need to safeguard and
                                       enhance the quality of the Agency’s operations. These include the
                                       adequacy of controls over credit card purchases and the integrity of data
                                       used by managers to make business decisions.

Integrity Awareness                    The OIG presents Integrity Awareness Briefings nationwide to educate
                                       GSA employees on their responsibilities for the prevention of fraud and
                                       abuse, and to reinforce employees’ roles in helping to ensure the integrity
                                       of Agency operations.

                                       This period, we presented 16 briefings attended by 423 regional
                                       employees. These briefings explain the statutory mission of the OIG and
                                       the methods available for reporting suspected instances of wrongdoing.
                                       In addition, through case studies and slides, the briefings make GSA
                                       employees aware of actual instances of fraud in GSA and other Federal
                                       agencies and thus help to prevent their recurrence. The briefings have in
                                       fact led GSA employees to report instances of suspected wrongdoing to
                                       the OIG for investigation.

Employee Misconduct                    Unauthorized Access to Electronic Mail Files
                                       Based upon a complaint from the Office of the Chief Information Officer
                                       (CIO), the OIG initiated an investigation into charges of illegal access to
                                       electronic mail files. The investigation determined that two GSA computer
                                       specialists used their system administrator rights to gain unauthorized
                                       access to the confidential electronic files of their GSA supervisor.

                                       On December 27, 2000, the CIO terminated one computer specialist and
                                       suspended a co-worker for 13 days for the roles they each played in
                                       gaining unauthorized access to confidential GSA electronic mail files.




30 Semiannual Report to the Congress
           Prevention Activities




          Former GSA Employee Pleads Guilty to Bribery
          Charge
          As the result of an OIG investigation, on November 9, 2000, a Federal
          Grand Jury in the Eastern District of New York returned a two-count
          indictment against a GSA official for soliciting a bribe from a GSA
          construction contractor in return for the award of repair and renovation
          contracts. The GSA official retired while under investigation. On
          February 5, 2001, he pled guilty to one count of accepting a gratuity. He
          was subsequently sentenced to 36 months probation, and ordered to pay
          $3,500 in restitution and a $3,000 fine.

          In addition, on December 21, 2000, the GSA construction contractor pled
          guilty in U.S. District Court to bribing the GSA official. Sentencing is
          scheduled for May 16, 2001.

          Bribery Conspiracy Exposed
          Based on information received from a supervisory contract guard, a joint
          investigation was initiated by the GSA/OIG, Department of Justice/OIG,
          and Federal Bureau of Investigation. The investigation looked into the
          bribery of Immigration and Naturalization Service (INS) officials by
          employees of a travel agency and a GSA contract security guard
          assigned to the immigration area of the New York City Federal building.
          The review determined that bribes were paid to obtain confidential
          information, restricted INS documents, and fraudulent passport stamps for
          INS clients.

          On December 1, 2000, two travel company employees were each
          sentenced to 12 months confinement and probation after having pled
          guilty to bribery. In addition, on December 7, 2000, the GSA contract
          security guard pled guilty in U.S. District Court to charges that he bribed
          an INS official. Sentencing is pending. Finally, on February 5, 2001, an
          Information Officer at the INS pled guilty to charges of receiving bribes
          and is currently awaiting sentencing.

Hotline   The OIG Hotline provides an avenue for concerned employees and other
          concerned citizens to report suspected wrongdoing. Hotline posters
          located in GSA-controlled buildings, as well as brochures, encourage
          employees to use the Hotline. We also launched our FraudNet Hotline
          platform to allow Internet reporting of suspected wrongdoing. During this
          reporting period, we received 1,087 Hotline reports. Of these,
          113 complaints warranted further GSA action, 23 warranted other Agency
          action, and 951 did not warrant action.




                                                          Office of Inspector General 31
                                        Prevention Activities




Financial Statements                   The Chief Financial Officers Act of 1990 requires the OIG to conduct or
                                       arrange for an annual audit of the GSA consolidated financial statements.
Audit                                  The Act also requires a report on the GSA system of internal accounting
                                       controls and compliance with laws and regulations. This audit was
                                       performed, as in past years, by an independent public accounting firm
                                       (IPA), with oversight and guidance from the OIG.

                                       In our audit report dated February 14, 2001, transmitting the auditor’s
                                       opinions, GSA received unqualified opinions on its financial statements
                                       and on management’s assertions regarding the effectiveness of internal
                                       controls over financial reporting. However, the IPA did identify three
                                       reportable conditions concerning GSA’s need to improve: (1) its entity-
                                       wide system security management and oversight, (2) development,
                                       implementation, and change controls over the Agency’s information
                                       system environment, and (3) the controls over the integrity of rent data.

                                       Additionally, the IPA reported a potential instance of noncompliance with a
                                       law arising from an advance between two GSA funds. This matter was
                                       reported in the IPA’s FY 1998 financial statement audit and again in its
                                       FY 1999 audit. Although GSA changed its practice by liquidating the
                                       advance quarterly instead of annually, this did not resolve this issue
                                       during FY 2000. However, the Office of the Chief Financial Officer (CFO)
                                       has now established procedures to liquidate this advance monthly, more
                                       closely associating the funds with the services provided. This new
                                       approach should address the concerns our office has regarding this
                                       matter.

                                       The OIG conducted the portion of the audit related to the design and
                                       operation of internal controls over the performance measures reported in
                                       GSA’s FY 2000 Annual Report Overview. Accordingly, we obtained an
                                       understanding of the design of the significant internal controls relating to
                                       the existence and completeness assertions, and determined whether they
                                       have been placed in operation, as required by the Office of Management
                                       and Budget (OMB) Bulletin No. 01-02.

                                       In our FY 1998 report, we identified a reportable condition regarding the
                                       need to clearly assign responsibility and accountability within GSA for
                                       verifying and ensuring the reliability of the data supporting the reported
                                       performance measures. While we noted a similar problem in our
                                       FY 1999 report, GSA had initiated steps to implement appropriate
                                       controls to ensure the integrity of performance measures. The CFO had
                                       developed an action plan that identified and defined Agency managers’
                                       responsibilities with regard to performance measures, and required
                                       managers to formally assert that the data supporting performance exist
                                       and are complete. At the time, we felt sufficient actions had been taken




32 Semiannual Report to the Congress
 Prevention Activities




so that GSA’s control problems should no longer be considered a
reportable condition. However, this year we noted that the CFO had not
made sufficient progress in implementing these controls, and we believe
this lack of progress in implementing these identified internal controls
represents a reportable condition. In addition, we conducted limited risk
assessments for three performance measures and reported that in some
cases these controls were not in place, or that the data were materially
incomplete.

We also reviewed GSA’s internal controls over the revenue and
disbursement cycles of the Information Technology (IT) Solutions regional
Client Support Center programs and the Federal Systems Integration and
Management Center. These programs serve regional customers by
providing business development, coordination and oversight, product
development budgeting, and financial management; in FY 1999, they had
$2.1 billion in business volume. They also assist agencies in acquiring
and utilizing information systems and information technology, and
generated $856 million in revenue in FY 1999. We found that the
controls over the revenue and disbursement cycles of the IT Solutions
programs appear to effectively and efficiently meet the desired control
objectives.

Finally, we reviewed GSA’s internal controls over the payroll function,
which is performed at the National Payroll Center (NPC) located within
the Heartland Finance Center. NPC uses the automated Payroll
Accounting and Reporting System to process payroll for GSA’s
employees and a number of independent agencies and presidential
commissions. We reported that the internal controls over the payroll
functions appear to be operating effectively and efficiently to meet control
objectives.

For FY 1999, the IPA expressed an opinion that except for two areas of
non-conformance, GSA’s financial management system requirements,
applicable Federal accounting standards, and the U.S. Government
Standard General Ledger were fairly stated, in all material respects. The
two areas of non-conformance were related to the systems security
requirements of OMB Circular No. A-130 and systems development
requirements of OMB Circular No. A-127. At the time, these situations
represented substantial noncompliance with the Federal financial
management systems requirements of the Federal Financial Management
Improvement Act (FFMIA) of 1996. Accordingly, GSA management was
required to issue a remediation plan addressing these issues. To date,
we have not been provided a copy of this plan and therefore cannot
assess management’s proposed improvements. Although these issues
have been reported as concerns in the IPA’s Opinion on Management’s




                                                Office of Inspector General 33
                                        Prevention Activities




                                       Assertion Regarding the Effectiveness of Internal Control Over Financial
                                       Reporting in FY 2000, the IPA determined that GSA met the requirements
                                       of FFMIA during FY 2000, due to changes in the criteria contained in
                                       relevant OMB guidance.




34 Semiannual Report to the Congress
Review of Legislation and Regulations




       The Inspector General Act of 1978 requires the OIG to review existing
       and proposed legislation and regulations to determine their effect on the
       economy and efficiency of the Agency’s programs and operations and on
       the prevention and detection of fraud and mismanagement.

       During this period, the OIG reviewed 151 legislative matters and
       32 proposed regulations and directives. The OIG provided comments on
       the following proposed regulations:

       • Draft Acquisition Letter on Negotiations Measurement and
         Improvement for Federal Supply Service (FSS) Contracts. We
         provided comments to FSS on a draft acquisition letter aimed at
         improving FSS contract negotiations, including Multiple Award
         Schedule (MAS) contract negotiations. GSA plans to accomplish the
         improvement through instituting three types of contract review
         procedures, including pre-negotiation clearance procedures (PNCs).
         PNCs would require a contracting officer (CO), for certain designated
         major contract actions, to consult with and obtain the approval of a
         panel of contracting supervisors, including auditors, before negotiating
         and awarding a contract. We noted that this PNC review could only
         improve the quality of contract negotiations. However, we also noted
         that PNC reviews were no substitute for instituting performance
         measures for contract actions, and we urged FSS to consider
         formulating such performance measures. We also made specific
         revisions to the draft letter’s text to focus the PNC process more on
         contract pricing.

       • Draft Acquisition Letter on Pricing MAS Professional Services
         Contracts. We provided comments to FSS on a draft acquisition letter
         aimed at providing guidance to COs on awarding MAS contracts for
         professional services. We noted that more guidance is needed in this
         important and emerging area, and we commended FSS for attempting
         to provide it. Our key concern centered on whether GSA COs would
         be able to obtain hourly rates for these services that were consistent
         with GSA’s most-favored customer pricing goal for MAS contracts.
         Specifically, we noted that in the commercial world services are priced
         based on a specific task to be performed. GSA negotiates hourly
         rates, however, without solid reference to particular underlying tasks.
         We suggested that the price analysis portions of the guidance be
         expanded by emphasizing the types of cost information COs should
         ask for to conduct price analyses, and by encouraging COs to ask for
         audit assistance in such negotiations. We also noted that the letter
         should more clearly separate out guidance meant for GSA COs who
         negotiate the MAS contracts versus COs from ordering agencies who
         may be placing task orders under the contract.




                                                      Office of Inspector General 35
                           Review of Legislation and Regulations




                                       • FSS Proposal to Alter Contract Retention Periods for MAS “Evergreen”
                                         Contracts. We provided informal comments to FSS on a preliminary
                                         proposal to limit records retention requirements for MAS contracts that
                                         have been “Evergreened” – extended through the use of three 5-year
                                         option periods. Our principal objection related to our position that COs
                                         need access throughout a potential 20-year contract term to pricing or
                                         other information submitted in early years to ensure that contract
                                         pricing continues to be fair and reasonable.

                                       • FSS Guidance on Variations Between General Accounting Office
                                         (GAO) and GSA Records Retention Periods and MAS Contracts. We
                                         provided the Office of Acquisition Policy with informal comments on
                                         planned guidance by FSS to the contractor community relating to
                                         differing records retention periods for MAS contract documents. The
                                         guidance generally provided specifics on the interplay between GAO’s
                                         requirements, and attendant fairly broad audit authorities, and GSA’s
                                         more limited requirements and audit authorities.

                                       • GSA Acquisition Manual Issuance on Administrative Agreements
                                         Between Agency Suspension/Debarment Authority and GSA
                                         Contractors. We provided comments to GSA’s suspension and
                                         debarment authority on contemplated coverage in the GSA Acquisition
                                         Manual relating to administrative agreements entered into between
                                         GSA and contractors. We suggested that a provision requiring the
                                         suspension and debarment authority to obtain adequate assurances
                                         regarding a contractor’s remediation of a prior misconduct problem be
                                         extended to all contractors, rather than just to those indicted or
                                         convicted of felonies. Our thinking was that GSA should also obtain
                                         assurances from contractors involved in prior misconduct resulting in a
                                         civil fraud action or serious performance-based action. We also urged
                                         GSA to include in the issuance a provision that any material breach of
                                         such an administrative agreement would be cause for immediate
                                         suspension or debarment proceedings.

                                       • Department of Justice/Federal Alternative Dispute Resolution Report
                                         on Confidentiality in Alternative Dispute Resolution (ADR). We
                                         provided comments to the President’s Council on Integrity and
                                         Efficiency and the Executive Council on Integrity and Efficiency
                                         (PCIE/ECIE), to be incorporated in a collective OIG response, on the
                                         Department of Justice’s report relating to “Confidentiality in Federal
                                         Alternative Dispute Resolution Programs.” We commended the report
                                         for providing guidance on confidentiality, and noted in particular the
                                         usefulness of the “Model Confidentiality Statement for Neutrals”
                                         contained within the report. We had, however, certain concerns and
                                         suggestions regarding the report. Our chief concern was a statement
                                         in the report that seemed to imply that statutes, like the Inspector



36 Semiannual Report to the Congress
Review of Legislation and Regulations




         General Act, could not be used as bases to require disclosure of ADR-
         related confidential disclosures or statements. We also noted that the
         report needed to conform various definitions of “dispute resolution
         communication” used within the document, and that the questions and
         answers should be clarified to set out the exceptions to the general
         rule against disclosure by neutrals of confidential communications.

       • PCIE/ECIE Strategic Plan. We provided comments to the PCIE/ECIE
         on a draft strategic plan the organizations had formulated. We
         suggested that the PCIE/ECIE consider creating a Human Resources
         Committee to help eliminate barriers to recruitment and boost staffing
         efforts in the OIG community. We also suggested that the performance
         measures in the strategic plan needed to be better defined and to state
         described goals, rather than just activities to be undertaken. Finally,
         we noted our belief that administrative staff for the PCIE/ECIE could
         best be established by obtaining specific statutory authority allowing for
         interagency funding.

       • Association of Inspectors General Draft Principles and Standards. The
         Association of Inspectors General is an organization of Federal, state
         and local IGs that addresses issues common to all of these offices.
         The Association has been in the process of developing principles and
         standards that are designed to help guide all IGs in the performance of
         their work. During this semiannual period, we reviewed and
         commented on a draft statement of principles for Inspectors General,
         as well as quality standards for investigations, inspections and
         evaluations, and OIGs generally. We suggested revisions in a number
         of different areas, such as law enforcement authorities, subpoena
         power, confidentiality of records, the scope of professional care,
         evidentiary issues, and reporting of OIG findings.




                                                       Office of Inspector General 37
                      Statistical Summary of OIG Accomplishments




                                       Audit Reports Issued
                                       The OIG issued 115 audit reports during this reporting period. The
                                       115 reports contained financial recommendations totaling $77,713,445,
                                       including $67,256,972 in recommendations that funds be put to better use
                                       and $10,456,473 in questioned costs. Due to GSA’s mission of
                                       negotiating contracts for Governmentwide supplies and services, most of
                                       the savings from recommendations that funds be put to better use would
                                       be applicable to other Federal agencies.

                                       Management Decisions on Audit Reports
                                       Table 1 summarizes the status of the universe of audits requiring
                                       management decisions during this period, as well as the status of those
                                       audits as of March 31, 2001. Two reports more than 6 months old were
                                       awaiting management decisions as of March 31, 2001; both of them were
                                       preaward audits, issued before February 10, 1996, which are not subject
                                       to the 6-month management decision requirement. Table 1 does not
                                       include 4 reports issued to another agency this period. Table 1 also does
                                       not include 6 reports excluded from the management decision process
                                       because they pertain to ongoing investigations.


                       Table 1. Management Decisions on OIG Audits
                                                                         Reports with        Total
                                                         No. of            Financial       Financial
                                                        Reports        Recommendations Recommendations

    For which no management decision
    had been made as of 10/1/00
      Less than six months old                             41                  29              $279,881,001
      Six or more months old                                2                   1                   203,343
    Reports issued this period                            111                  57                76,985,115
    TOTAL                                                 154                  87              $357,069,459
    For which a management decision
    was made during the reporting period
      Issued prior periods                                 41                  29              $279,881,001
      Issued current period                                74                  29                16,159,617
    TOTAL                                                 115                  58              $296,040,618
    For which no management decision
    had been made as of 3/31/01
      Less than six months old                             37                  28              $ 60,825,498
      Six or more months old                                2                   1                   203,343
    TOTAL                                                  39                  29              $ 61,028,841




38 Semiannual Report to the Congress
            Statistical Summary of OIG Accomplishments




                           Management Decisions on Audit Reports with
                           Financial Recommendations
                           Tables 2 and 3 present the audits identified in Table 1 as containing
                           financial recommendations by category (funds to be put to better use or
                           questioned costs).




          Table 2. Management Decisions on OIG Audits with
          Recommendations that Funds be Put to Better Use

                                                   No. of                     Financial
                                                  Reports                 Recommendations

For which no management decision had
been made as of 10/1/00
  Less than six months old                           26                    $277,078,026
  Six or more months old                              1                         203,343
Reports issued this period                           42                      66,528,642
TOTAL                                                69                    $343,810,011
For which a management decision was
made during the reporting period
  Recommendations agreed to by
  management based on proposed
  •management action                                 —                     $ 75,122,509
  •legislative action                                —                               —
  Recommendations not agreed to
  by management                                      —                       209,212,740
TOTAL                                                44                     $284,335,249
For which no management decision had
been made as of 3/31/01
  Less than six months old                           24                    $ 59,271,419
  Six or more months old                              1                         203,343
TOTAL                                                25                    $ 59,474,762




                                                                         Office of Inspector General 39
                      Statistical Summary of OIG Accomplishments




                       Table 3. Management Decisions on OIG Audits
                                  with Questioned Costs

                                                            No. of                    Questioned
                                                           Reports                      Costs

          For which no management decision
          had been made as of 10/1/00
            Less than six months old                           3                    $ 2,802,975
            Six or more months old                             0                              0
          Reports issued this period                          15                     10,456,473
          TOTAL                                               18                    $13,259,448
          For which a management decision
          was made during the reporting
          period
            Disallowed costs                                  —                     $12,426,613
            Costs not disallowed                              —                         499,555
          TOTAL                                               14                    $12,926,168*
          For which no management decision
          had been made as of 3/31/01
            Less than six months old                           4                    $ 1,554,079
            Six or more months old                             0                              0
          TOTAL                                                4                    $ 1,554,079

          *Includes $1,220,799 that management decided to seek that exceeded recommended amounts.




40 Semiannual Report to the Congress
           Statistical Summary of OIG Accomplishments




                       Investigative Workload
                       The OIG opened 100 investigative cases and closed 89 cases during this
                       period. In addition, the OIG received and evaluated 83 complaints and
                       allegations from sources other than the Hotline that involved GSA
                       employees and programs. Based upon our analyses of these complaints
                       and allegations, OIG investigations were not warranted.

                       Referrals
                       The OIG makes criminal referrals to the Department of Justice or other
                       authorities for prosecutive consideration and civil referrals to the Civil
                       Division of the Department of Justice or U.S. Attorneys for litigative
                       consideration. The OIG also makes administrative referrals to GSA
                       officials on certain cases disclosing wrongdoing on the part of GSA
                       employees, contractors, or private individuals doing business with the
                       Government.

                   Table 4. Summary of OIG Referrals

Type of Referral                      Cases                                Subjects
Criminal                                 41                                    75
Civil                                    13                                    23
Administrative                           86                                   163
TOTAL                                  140                                    261


                       In addition, the OIG made 46 referrals to GSA officials for information
                       purposes only.

                       Actions on OIG Referrals
                       Based on these and prior referrals, 32 cases (47 subjects) were accepted
                       for criminal prosecution and 13 cases (15 subjects) were accepted for
                       civil litigation. Criminal cases originating from OIG referrals resulted in
                       28 indictments/informations and 23 successful prosecutions. OIG civil
                       referrals resulted in 13 cases being accepted for civil action and 2 case
                       settlements. Based on OIG administrative referrals, management
                       debarred 6 contractors/individuals, suspended 31 contractors/individuals,
                       and took 15 personnel actions against employees.




                                                                        Office of Inspector General 41
                      Statistical Summary of OIG Accomplishments




                                       Monetary Results
                                       Table 5 presents the amounts of fines, penalties, settlements, judgments,
                                       and restitutions payable to the U.S. Government as a result of criminal
                                       and civil actions arising from OIG referrals.

                                       In addition, the OIG had administrative recoveries of $1,516,864 during
                                       the course of its investigations and recovered property with a fair market
                                       value of $164,897.




                             Table 5. Criminal and Civil Recoveries
                                                            Criminal                        Civil

           Fines and Penalties                          $ 533,434                   $       —

           Settlements and Judgments                             —                  $9,057,800

           Restitutions                                    504,432                           —

           TOTAL                                        $1,037,866                  $9,057,800




42 Semiannual Report to the Congress
APPENDICES
                   Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision                   The recommendations include developing a cost
process, the GSA Office of the Chief Financial Officer,      accounting system and controls, estimating revenues,
Office of the Controller, is responsible for tracking the    developing performance measures, and providing
implementation of audit recommendations after a              training. They are scheduled for completion between
management decision has been reached. That office            October 15 and November 15, 2001.
furnished the following status information.
                                                             Financial and Consulting Services
Twenty-two audits highlighted in prior reports to the        Period First Reported: April 1, 2000 to September 30, 2000
Congress have not yet been fully implemented; all are
being implemented in accordance with currently               The review focused on the award of several contracts
established milestones.                                      used to provide financial and consulting services to two
                                                             Federal agencies. The report contained three recom-
Controls over Proceeds from Real                             mendations; two have been implemented.
Property Sales
Period First Reported: April 1, 2000 to September 30, 2000   The remaining recommendation involves ensuring that
                                                             services are within the scope of authority and fulfill the
The review focused on management controls over               mission of the Federal Buildings Fund. It is scheduled
proceeds from real property sales. The report con-           for completion by April 15, 2001.
tained three recommendations; they have not been
implemented.                                                 Smart Card Initiatives
The recommendations include testing compliance with          Period First Reported: April 1, 2000 to September 30, 2000
controls, providing user-friendly reports, and provid-       The review examined GSA’s efforts to assist Federal
ing better guidelines to zonal offices. They are             agencies in implementing the use of a “smart card.”
scheduled for completion between May 15, 2001 and            The report contained two recommendations; neither
September 15, 2002.                                          have been implemented.

PBS Task and Delivery Order                                  The recommendations involve identifying the office
Contracts                                                    responsible for internal smart card implementation and
Period First Reported: April 1, 2000 to September 30, 2000   communicating responsibilities for smart card pilots
The review assessed PBS’ use of multiple award task          and Governmentwide implementation. They are
and delivery order contracts. The report contained two       scheduled for completion by August 15, 2001.
recommendations; one has been implemented.
                                                             Information Tracking Process
The remaining recommendation involves phasing out            Period First Reported: April 1, 2000 to September 30, 2000
the use of single award indefinite delivery indefinite
                                                             The review assessed FTS’ Integrated Task Order
quantity construction contracts. It is scheduled for
                                                             Management System. The report contained two
completion by April 15, 2001.
                                                             recommendations; neither have been implemented.
National Real Estate Services                                The recommendations involve continuing current
Contracts
                                                             procurement methods and using FTS Chief Information
Period First Reported: April 1, 2000 to September 30, 2000   Office resources, and developing and implementing a
The review evaluated national real estate services           testing system. They are scheduled for completion by
contracts for a wide variety of services. The report         April 15, 2001.
contained four recommendations; they have not been
implemented.



                                                                                          Office of Inspector General 45
                    Appendix I–Significant Audits from Prior Reports



FTS Task and Delivery Order                                  Real Property Management
Contracts                                                    Information System
Period First Reported: April 1, 2000 to September 30, 2000   Period First Reported: October 1, 1999 to March 31, 2000

The review assessed FTS’ use of multiple award task          The review evaluated the System for Tracking and
and delivery order contracts. The report contained five      Administering Real Property (STAR). The report
recommendations; they have not been implemented.             contained four recommendations; one has been imple-
                                                             mented.
The recommendations involve enhancing procurement
practices, promoting meaningful competition, strength-       The remaining recommendations include identifying
ening controls, evaluating the fee collection process,       capabilities needed in STAR, developing a project plan,
and developing a transition plan. They are scheduled         and establishing a project management team. They
for completion by July 15, 2001.                             are scheduled for completion by November 15, 2001.

Building Access Controls                                     Finance Center Payments
Period First Reported: April 1, 2000 to September 30, 2000   Period First Reported: October 1, 1999 to March 31, 2000

The review assessed the physical access controls in a        The review focused on management controls over pay-
regional office complex. The report contained one            ments for purchase card and fleet card transactions.
recommendation; it has not been implemented.                 The report contained eight recommendations; seven
                                                             have been implemented.
The recommendation involves reevaluating access
                                                             The remaining recommendation involves ensuring per-
controls at the complex. It is scheduled for completion
                                                             sonnel follow up on improper fleet card transactions. It
by August 15, 2001.
                                                             is scheduled for completion by May 15, 2001.
Environmental Management System                              Controls over RWA Expenditures
Period First Reported: October 1, 1999 to March 31, 2000
                                                             Period First Reported: April 1, 1999 to September 30, 1999
The review focused on the management of the
                                                             The review assessed the controls over GSA’s
environmental program to address conditions in GSA-          Reimbursable Work Authorization process. The report
controlled space.    The report contained three              contained two recommendations; neither has been
recommendations; one has been implemented.                   implemented.
The remaining recommendations include establishing           The recommendations involve reviewing financial
a framework to evaluate and coordinate regional activ-       data; and adjusting controls, updating policies, and
ities, and expanding the focus of the program. They          providing training. They are scheduled for completion
are scheduled for completion by October 15, 2001.            by January 15, 2002.

Contract Security Guard Program                              Local Area Network Security Risks
Period First Reported: October 1, 1999 to March 31, 2000     Period First Reported: April 1, 1999 to September 30, 1999
The review assessed the Contract Security Guard              The review focused on the local area network (LAN)
Program. The report contained eight recommenda-              security. The report contained four recommendations;
tions; six have been implemented.                            one has been implemented.

The remaining recommendations include developing a           The remaining recommendations include developing
national training program, witnessing firearm qualifica-     LAN security plans, establishing processes for manag-
tion sessions, and tracking qualification status of          ing accounts and contingency plans, and identifying
contract guards. They are scheduled for completion by        controls for remote access to LANs. They are sched-
May 15, 2001.                                                uled for completion between May 15 and July 15, 2001.

46 Semiannual Report to the Congress
                    Appendix I–Significant Audits from Prior Reports




Access to Building Design Plans                              Megacenter Dispatch Services
Period First Reported: October 1, 1998 to March 31, 1999     Period First Reported: October 1, 1997 to March 31, 1998
The review focused on the accessibility of building          The review focused on GSA’s plans to consolidate
plans to the general public. The report contained two        security control centers into four megacenters. The
recommendations; one has been implemented.                   report contained four recommendations; they have not
                                                             been implemented.
The remaining recommendation involves sharing the
results of the review with appropriate Agency officials.     The recommendations include developing alternate
It is scheduled for completion by May 15, 2001.              access procedures, developing contingency plans to
                                                             continue the dispatch function during natural disasters,
Security Standards for New Buildings                         upgrading alarm systems, and implementing a preven-
Period First Reported: October 1, 1998 to March 31, 1999     tive alarm maintenance program. They are scheduled
                                                             for completion by July 15, 2001.
The review evaluated security standards for new and
renovated Federal buildings. The report contained two        Contract Workload Management
recommendations; neither has been implemented.
                                                             Period First Reported: October 1, 1997 to March 31, 1998
The recommendations include developing a policy that         The review identified opportunities for improving
defines roles and responsibilities of individuals            workload management. The report contained one
involved in building standards, and creating security        recommendation; it has not yet been implemented.
standards for newly acquired leased space. They are
scheduled for completion between June 15, 2001 and           The recommendation involves the need to automate
January 15, 2002.                                            key activities of the contracting process. It is sched-
                                                             uled for completion by June 15, 2002.
Security Enhancements in Federal
Buildings                                                    Federal Protective Service
Period First Reported: April 1, 1998 to September 30, 1998   Investigation Office
The review evaluated GSA’s program for upgrading             Period First Reported: April 1, 1997 to September 30, 1997
security in Federal buildings. The report contained six      The evaluation focused on a review of the Federal
recommendations; five have been implemented.                 Protective Service’s criminal investigation activities.
                                                             The report contained five recommendations; four have
The remaining recommendation involves reporting cost         been implemented.
data for future countermeasures. It is scheduled for
completion by September 15, 2001.                            The remaining recommendation involves establishing
                                                             measurable criminal investigations program perform-
Information Systems Security                                 ance standards. It is scheduled for completion by
Period First Reported: April 1, 1998 to September 30, 1998   April 15, 2001.
The review assessed the security measures of six
major Internet and Intranet GSA applications. The            Debarment Program
report contained four recommendations; three have            Period First Reported: October 1, 1996 to March 31, 1997
been implemented.                                            The review identified opportunities for improving
                                                             the Debarment Program. The report contained two
The remaining recommendation involves specifying             recommendations; one has been implemented.
roles and responsibilities to ensure security.
It is scheduled for completion by July 15, 2001.             The remaining recommendation involves modifying
                                                             the new contractor information system. It is scheduled
                                                             for completion by May 15, 2001.

                                                                                          Office of Inspector General 47
                               Appendix II–Audit Report Register

                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put To      (Unsupported)
Report         Number                   Title                                Better Use         Costs


(Note: Because some audits pertain to contract award or actions that have
not yet been completed, the financial recommendations to these reports
are not listed in this Appendix.)

PBS Management Consulting Reviews
11/15/00       A001064         Management Assistance Review of the
                               Public Buildings Service’s Use of Contracts
                               to Supplement Personnel in the National
                               Capital Region

11/17/00       A001114         Management       Consulting    Review:
                               Assessment of Contractor Performance,
                               Boston      Courthouse     Management
                               Associates, Contract Number GS-01P-96-
                               BWC-0062

11/27/00       A001035         Management Consulting Review: Howard
                               University Contract Billings, Contract
                               Number GS-02P-93-CUC-0071

PBS Internal Audits
11/14/00       A995302         Audit of Security Clearance Procedures for
                               Child Care Center Employees

12/13/00       A001053         Review of Elevator Maintenance Contract,
                               Federal Building, U.S. Courthouse,
                               Indianapolis,       Indiana,   Southern
                               Illinois/Indiana Property Management
                               Center, Springfield, Illinois

12/18/00       A000882         Survey of Contract Food Service Providers
                               in Region 2, Public Buildings Service
                               Property Management Division

12/20/00       A001071         Review of Procurements Made by the
                               Federal  Records   Center  Property
                               Management Center

01/09/01       A001112         Alert Report on Safety and Fire Prevention
                               Deficiencies, U.S. Patent and Trademark
                               Offices




48 Semiannual Report to the Congress
                      Appendix II–Audit Report Register

                                                                               Financial
                                                                           Recommendations
                                                                       Funds to        Questioned
Date of    Audit                                                      Be Put To      (Unsupported)
Report     Number              Title                                  Better Use         Costs


01/11/01   A000935    Audit of GSA’s Competitive Electric
                      Procurements and Controls Over Utility Bill
                      Accuracy in Regions 1, 2, and 3

02/16/01   A000890    Audit of PBS’ Initiatives to Minimize Cost
                      Growth on Prospectus Level Repair and
                      Alteration Projects

03/09/01   A010112    Review of Service Contracts Awarded by the
                      Federal Protective Service’s Central Office

03/15/01   A000929    Audit of PBS Utility Procurements, Pacific                            $6,000
                      Rim Region

03/16/01   A001088    Advisory Review of GSA’s Lease Acquisition
                      Process

03/21/01   A001063    Review of Internal Controls Over Smart
                      Cards - NCR

03/23/01   A000992    Audit of The Federal Protective Service’s
                      Intelligence Sharing Program

03/27/01   A000968    Review of Operating Equipment Inventories:
                      Public Buildings Service, New England
                      Region

03/28/01   A001010    Review of the Public Buildings Service
                      Spatial Data Integrity Project in the Greater
                      Southwest Region

03/30/01   A000983    Audit of PBS’ Linking Budget to Performance
                      Program

PBS Contract Audits
10/06/00   A001118    Preaward Audit of Architect and Engineering
                      Services Contract: Brenner Design, Inc.,
                      Solicitation Number GS-05P-00-GBD-0038

10/12/00   A010006    Preaward Audit of Architect and Engineering
                      Services Contract:     Lynch, Harrison &
                      Brumleve, Inc., Solicitation Number GS-
                      05P-00-GBD-0038




                                                                           Office of Inspector General 49
                               Appendix II–Audit Report Register

                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put To      (Unsupported)
Report         Number                   Title                               Better Use         Costs


10/13/00       A001086         Audit of Claim for Increased Costs: Turner
                               Construction Company, Contract Number
                               GS05P94GBC0037

10/13/00       A001089         Audit of Billings under Contract Number                      $188,832
                               GS06P99GZC0305: Johnson Controls,
                               Inc., Subcontractor to Corrigan Company
                               Mechanical Contractors

10/17/00       A001024         Preaward Audit of a Claim: Canron
                               Fabrication Corp., Second-Tier Subcon-
                               tractor to Turner Construction Company,
                               Contract Number GS-02P-95-DTC-0014

10/17/00       A001110         Audit of Billings under Contract Number                         $7,304
                               GS06P97GYD0025: Commercial Wood-
                               working Co., Subcontractor to Novack/Hof
                               Joint Venture

10/17/00       A001127         Preaward Audit of Architect-Engineering
                               Design Services Contract: Fletcher-
                               Thompson, Inc., Solicitation Number GS-
                               01P-BZC-0003

10/18/00       A001090         Audit of Billings under Contract Number                      $157,834
                               GS06P99GZC0305: Lyon Sheet Metal
                               Works, Subcontractor to Corrigan
                               Company Mechanical Contractors

10/25/00       A001108         Audit of Billings under Contract Number                       $41,799
                               GS06P97GYD0025: Aschinger Electric
                               Company, Subcontractor to Novack/Hof
                               Joint Venture

10/25/00       A010010         Preaward Audit of Indefinite Quantity
                               Contract: National Institute of Building
                               Sciences, Contract Number GS11P00-
                               MKD0013




50 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                              Financial
                                                                          Recommendations
                                                                      Funds to        Questioned
Date of    Audit                                                     Be Put To      (Unsupported)
Report     Number             Title                                  Better Use         Costs


10/25/00   A001098   Preaward Audit of a Claim for Increased
                     Costs:    Well-Bilt Aluminum Products,
                     Subcontractor to Ray Wilson Company,
                     Ronald Reagan Federal Building & U.S.
                     Courthouse, Santa Ana, California, Contract
                     Number GS-09P-95-KTC-0012

10/27/00   A001124   Preaward Audit of Architect and Engineering
                     Services Contract:      W. L. Cassell &
                     Associates, Inc., Consultant to Wiedeman
                     Architects,   Inc.,   Contract     Number
                     GS06P00GZC0007

10/30/00   A001082   Preaward Audit of a Claim for Increased
                     Costs: Invensys Building Systems, Inc.,
                     Second Tier Subcontractor to Ray Wilson
                     Company, Ronald Reagan Federal Building
                     & U.S. Courthouse, Santa Ana, California,
                     Contract Number GS-09P-95-KTC-0012

10/30/00   A001121   Preaward Audit of Architect and Engineering
                     Services Contract: Wiedeman Architects,
                     Inc., Contract Number GS06P00GZC0007

10/30/00   A001099   Postaward Audit of Liability Insurance Costs-
                     FY 99, Six World Trade Center, New York,
                     NY, Lease Number GS-02B-15370

10/30/00   A000942   Preaward Audit of a Claim: Centrifugal/
                     Mechanical Associates, Inc., Subcontractor
                     to Turner Construction Company, Contract
                     Number GS-02P-95-DTC-0014

11/02/00   A001117   Preaward Audit of Architect and Engineering
                     Services Contract: Biagi, Chance, Cummins,
                     London, Titzer, Inc., Solicitation Number
                     GS05P00GBD0038

11/02/00   A001116   Preaward Audit of Architect and Engineering
                     Services Contract: Kingston Environmental
                     Services, Inc., Consultant to Wiedeman
                     Architects,   Inc.,   Contract     Number
                     GS06P00GZC0007




                                                                          Office of Inspector General 51
                               Appendix II–Audit Report Register

                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put To      (Unsupported)
Report         Number                   Title                               Better Use         Costs


11/08/00       A001085         Preaward Audit of a Claim for Increased
                               Costs:     D. Burke Mechanical Corp.,
                               Second Tier Subcontractor to Ray Wilson
                               Company, Ronald Reagan Federal
                               Building & U.S. Courthouse, Santa Ana,
                               California, Contract Number GS-09P-95-
                               KTC-0012

11/09/00       A001078         Preaward Audit of a Claim (Unresolved
                               Change Orders):        Warren Electrical
                               Construction Corporation, Subcontractor to
                               Archer-Western Contractors, Ltd., Contract
                               Number GS-03P-96-DXC-0017

11/13/00       A001120         Preaward Audit of Architect and
                               Engineering Services Contract: Gastinger
                               Walker Harden Architects, Contract
                               Number GS06P00GZC0007

11/16/00       A010041         Preaward Audit of Cost Accounting
                               Standards Disclosure Statement for:
                               Whiting-Turner Contracting Company,
                               Solicitation Number GS-04P-97-EXC-0005

11/16/00       A001126         Preaward Audit of Architect and
                               Engineering Services Contract: Various
                               Consultants to Wiedeman Architects, Inc.,
                               Contract Number GS06P00GZC0007

11/24/00       A010046         Preaward Audit of Architect and
                               Engineering Services Contract: Einhorn
                               Yaffee    Prescott       Architecture   &
                               Engineering, P.C., Solicitation Number GS-
                               11P00YQC0082

11/30/00       A001067         Postaward Audit of Blanket Purchase                           $46,377
                               Agreement Number GS-03K-99-DSA-
                               0002: ACS Government Solutions Group,
                               Inc.

11/30/00       A001100         Audit of Small Business Subcontracting
                               Plan: Laquila Construction, Inc., Contract
                               Number GS-02P-99-DTC-0006




52 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                              Financial
                                                                          Recommendations
                                                                      Funds to        Questioned
Date of    Audit                                                     Be Put To      (Unsupported)
Report     Number             Title                                  Better Use         Costs


12/07/00   A001025   Preaward Audit of a Claim for Increased
                     Costs: Artek Contracting, Inc., Subcontractor
                     to Ray Wilson Company, Ronald Reagan
                     Federal Building & U.S. Courthouse, Santa
                     Ana, California, Contract Number GS-09P-
                     95-KTC-0012

12/13/00   A010047   Preaward Audit of Claim:   Culpepper
                     Construction Company, Inc., Contract
                     Number GS-04P-96-EXC-0033

12/18/00   A010105   Preaward Audit of Architect-Engineering
                     Construction Inspection Services Contract:
                     KRI Management Inc., Solicitation Number
                     GS-01P-00-BZD-0007

12/22/00   A995217   Audit of Small Business Subcontracting Plan:
                     Turner Construction Company, Contract
                     Number GS-02P-95-DTC-0014

12/28/00   A001027   Audit of Recoverable Costs - FY 1998: Six                          $419,690
                     World Trade Center, New York, NY, Lease
                     Number GS-02B-15370

12/28/00   A010087   Preaward Audit of Architect and Engineering
                     Proposal: Morphosis, Solicitation Number
                     GS-11P-00-YQC-0082

01/10/01   A010106   Preaward Audit of Architect-Engineering
                     Construction Inspection Services Contract:
                     Earth Tech, Inc., Solicitation Number GS-
                     01P-00-BZD-0007

01/10/01   A001092   Audit of Billings under Contract Number                             $67,593
                     GS06P99GZC0304:         Wayne Automatic
                     Sprinkler Corporation, Subcontractor to Fire
                     Assurance, Inc.

01/18/01   A010051   Audit of Billings under Contract Number                             $69,744
                     GS06P97GYD0025:        Murphy Company
                     Mechanical Contractors and Engineers, Inc.,
                     Subcontractor to Novack/Hof Joint Venture




                                                                          Office of Inspector General 53
                               Appendix II–Audit Report Register

                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put To      (Unsupported)
Report         Number                   Title                               Better Use         Costs


01/18/01       A010075         Preaward Audit of Architect and
                               Engineering Services Contract: Elliott
                               LeBoeuf & Associates, Solicitation Number
                               GS11P00YQC0082

01/25/01       A001081         Preaward Audit of a Claim for Increased
                               Costs: Coken Company, Inc., Subcontrac-
                               tor to Dick Corporation, U.S. Courthouse &
                               Federal Building, Phoenix, Arizona,
                               Contract Number GS-09P-96-KTC-0070

01/29/01       A000909         Preaward Audit of a Claim:      Turner
                               Construction Company, Contract Number
                               GS-02P-95-DTC-0014

01/31/01        A010063        Preaward Audit of A/E Proposal: RM
                               Kliment & Frances Halsband Architects,
                               Contract Number GS-02P-96-DTC-0011

01/31/01       A010121         Audit of Small Business Subcontracting
                               Plan: J. Kokolakis Contracting, Inc.,
                               Contract Number GS-02P-98-DTC-0056N

02/02/01       A010117         Preaward Audit of Architect-Engineering
                               Services Contract: Rodriguez & Quiroga
                               Architects, Chartered, Solicitation Number
                               GS-04P-01-EXD-0009

02/06/01       A010094         Preaward Audit of a Claim: Smith & Oby
                               Company, Contract Number GS-05P-99-
                               GBC-0025

02/08/01       A010089         Audit of a Claim for Increased Costs:
                               Palafox Street Associates, L.P., Federal
                               Courthouse, Pensacola, FL, Lease
                               Number GS-04B-35055

02/12/01       A001047         Preaward Audit of a Claim (Time Impact
                               Costs): Warren Electrical Construction
                               Corporation, Subcontractor to Archer-
                               Western Contractors, Ltd., Contract
                               Number GS-03P-96-DXC-0017




54 Semiannual Report to the Congress
                     Appendix II–Audit Report Register

                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put To      (Unsupported)
Report     Number             Title                                 Better Use         Costs


02/14/01   A70624    Review of Pretrial Stipulation on Accounting
                     for Subcontractor’s Pass-Thru Costs:
                     Mercury Masonry Corporation, Subcontrac-
                     tor to Terminal Construction Corporation,
                     Contract Number GS-02P-23256

02/14/01   A70654    Review of a Claim: Mercury Masonry
                     Corporation, Subcontractor to Terminal
                     Construction Corporation, Contract Number
                     GS-02P-23256

02/15/01   A001072   Audit of Claim for Increased Costs: Archer-
                     Western Contractors, Ltd., Contract Number
                     GS-03P-96-DXC-0017

02/15/01   A010120   Preaward Audit of Architect and Engineering
                     Services Contract: Poepping, Stone, Bach &
                     Associates, Inc., Solicitation Number
                     GS05P00GAD0262

02/16/01   A010030   Audit of Billings under Contract Number                           $351,674
                     GS06P97GYD0025:        Novack/Hof Joint
                     Venture

02/26/01   A010141   Preaward Audit of Architect-Engineering
                     Services Term Contract: BKM Architects,
                     Inc., Solicitation Number GS-04P-00-LCD-
                     0017

02/27/01   A010137   Preaward Audit of Architect and Engineering
                     Services Contract: Downing Architects, P.C.,
                     Contract Number GS06P00GZC0009

02/28/01   A010093   Preaward Audit of a Change Order Proposal:
                     J. Kokolakis Contracting, Inc., Contract
                     Number GS-02P-98-DTC-0056N

03/01/01   A010134   Preaward Audit of Architect-Engineering
                     Services Term Contract: ACAI Associates,
                     Inc., Solicitation Number GS-04P-00-LCD-
                     0017




                                                                         Office of Inspector General 55
                               Appendix II–Audit Report Register

                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put To      (Unsupported)
Report         Number                   Title                               Better Use         Costs


03/02/01       A010140         Preaward Audit of Architect–Engineering
                               Services Contract: Ranon & Partners, Inc.,
                               Contract Number GS-04P-00-LCD-0017

03/05/01       A010139         Preaward Audit of Architect and
                               Engineering Services Contract:   The
                               Durrant Group, Inc., Contract Number
                               GS06P00GZC0009

03/07/01       A010100         Audit of Claim for Unresolved Change
                               Orders: Archer-Western Contractors, Ltd.,
                               Contract Number GS-03P-96-DXC-0017

03/09/01       A010148         Preaward Audit of Architect and Engi-
                               neering Services Contract: Consultants to
                               Downing Architects, P.C., Contract Number
                               GS06P00GZC0009

03/20/01       A001119         Audit of Forward Pricing Rates: J.A.
                               Jones-GMO, LLC, Contract Number GS-
                               02P-99-DTC-0006 & GS-02P-98-DTC-
                               0088

03/30/01       A010161         Preaward Audit of Architect and
                               Engineering   Services     Contract:
                               Neumann/Smith & Associates, Contract
                               Number GS05P99GBC0020

FSS Internal Audits
01/02/01       A001097         Limited Audit of the Federal Supply
                               Service’s Performance Measure: “Percent
                               of Schedule Contracts Awarded to Small
                               Business”

01/09/01       A000897         Limited Audit of Federal Supply Service’s
                               Contracting for Services under Multiple
                               Award Schedule Contracts

01/31/01       A001061         Management Control Review of Contract
                               Management Division, Federal Supply
                               Service, Pacific Rim Region

02/06/01       A001062         Review of Transportation Costs at the                         $64,000
                               Stockton Depot, Federal Supply Service


56 Semiannual Report to the Congress
                      Appendix II–Audit Report Register

                                                                                Financial
                                                                            Recommendations
                                                                        Funds to        Questioned
Date of    Audit                                                       Be Put To      (Unsupported)
Report     Number               Title                                  Better Use         Costs


03/28/01   A000969    Review of the Management of the Federal
                      Supply Service Donation Program in the
                      Greater Southwest Region

FSS Contract Audits
10/06/00   A001030    Preaward Audit of Multiple Award Schedule
                      Contract:    Thomson      Professional   &
                      Regulatory, Inc., D.B.A. RIA, Extension to
                      Contract Number GS-02F-0859G

11/28/00   A81808     Postaward Audit of Multiple Award Schedule                        $7,779,201
                      Contract: Gateway 2000, Contract Number
                      GS-35F-3349D for the Period May 10, 1994
                      Through March 31, 1997

12/21/00   A42160     Postaward Audit of Multiple Award Schedule                        $1,064,389
                      Contract: Storage Technology Corporation,
                      Contract Number GS00K92AGS5574

01/10/01   A001021    Postaward Audit of Multiple Award Schedule                          $183,047
                      Contract: Merant, Inc., for the Interim Period
                      March 26, 1999 Through September 30,
                      2000, Contract Number GS-35F-0322J

01/10/01   A001021    Postaward Audit of Multiple Award Schedule                             $8,989
                      Contract and Industrial Funding Fee:
                      Merant, Inc., for the Interim Period March 26,
                      1999 Through September 30, 2000, Contract
                      Number GS-35F-0322J

01/22/01   A001075    Interim Period Postaward Audit of Multiple
                      Award Schedule Contract:              Kimball
                      International, Inc., Contract Number GS-29F-
                      0177G

02/13/01   A010108    Preaward Audit of Cost or Pricing Data:
                      Usource, L.L.C., Solicitation Number TFTP-
                      EJ-000871-B

02/20/01   A010114    Preaward Audit of Cost or Pricing Data:
                      Resolution Dynamics, Inc., Solicitation
                      Number TFTP-MC-000874-B




                                                                            Office of Inspector General 57
                               Appendix II–Audit Report Register

                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put To      (Unsupported)
Report         Number                   Title                                Better Use         Costs


03/02/01       A010099         Preaward Audit of Multiple Award Schedule
                               Contract: Security Engineered Machinery
                               Company,     Incorporated,     Solicitation
                               Number FCO-00-CORP-0000C

03/27/01       A010124         Preaward Audit of Multiple Award Schedule
                               Contract:      Whitaker Brothers, Inc.,
                               Solicitation Number FCGE-C1-00-0001-B

03/29/01       A010169         Preaward Audit of Cost Plus Fixed Fee
                               IDIQ Proposal: RS Information Systems,
                               Inc., Solicitation Number GSC-TFMGD-00-
                               3006

03/30/01       A010073         Preaward Audit of Multiple Award Schedule
                               Contract: Canon U.S.A., Inc., Solicitation
                               Number FCGE-C1-00-0001-B

FTS Internal Audits
11/02/00       A000960         Audit of Federal Technology Service
                               Information Technology Solutions Internal
                               Controls

11/17/00       A001115         Advisory Review of FTS’ Proposed
                               Procedure for Paying Invoices without
                               Receiving Reports

11/29/00       A001031         Review of Office of Information Security,
                               Federal Technology Service

03/23/01       A001031         Review of Center for Information Security
                               Services, Federal Technology Service

03/30/01       A001097         Audit of the Federal Technology Service’s
                               Be Customer Centric - Reduce Acquisition
                               Cycle Times Performance Measure

FTS Contract Audits
11/16/00       A010086         Limited Postaward Audit of Billing
                               Methodology:     Richard Carson &
                               Associates, Inc., Contract Number
                               GS00T99ALD0211




58 Semiannual Report to the Congress
                        Appendix II–Audit Report Register

                                                                                 Financial
                                                                             Recommendations
                                                                         Funds to        Questioned
Date of    Audit                                                        Be Put To      (Unsupported)
Report     Number                Title                                  Better Use         Costs


Other Internal Audits
11/15/00   A010016      Report on Limited Audit of the Fiscal Year
                        2000 Federal Managers’ Financial Integrity
                        Act Assurance Statements

11/28/00   A001012      PricewaterhouseCoopers LLP, Penetration
                        Testing Summary Report, Fiscal Year 2000,
                        Financial Statement Audit

01/05/01   A000946      Audit of GSA’s         Seat    Management
                        Implementation

01/26/01   A000986      Review of GSA’s Billing and Collection
                        Processes for Federal Customers

02/08/01   A001012      General Services Administration, Assess-
                        ment of EDP Security Controls

02/14/01   A001097      Report on Internal         Controls    Over
                        Performance Measures

02/14/01   A001012      Audit of the General Services Admini-
                        stration’s Fiscal Years 2000 and 1999
                        Financial Statements

02/22/01   A010107      Review of GSA’s Activities Related to
                        Cookies

03/07/01   A001013      Advisory Review of General Services
                        Administration’s Annual Report

03/23/01   A001097      Limited Audit of the Performance Measure:
                        “Achieve 100% Accreditation of All Eligible
                        Child Care Centers”

03/30/01   A001012      Review of Payroll Internal Controls - FY 2000

Non-GSA Internal Audits
01/18/01   A001012      General Services Administration, Office of
                        Inspector General’s Report on Applying
                        Agreed-Upon Procedures (Re: Loss
                        Contingencies)




                                                                             Office of Inspector General 59
                               Appendix II–Audit Report Register

                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put To      (Unsupported)
Report         Number                   Title                               Better Use         Costs


01/18/01       A001012         General Services Administration, Office of
                               Inspector General’s Report on Applying
                               Agreed-Upon Procedures (Re: Environ-
                               mental Liabilities)

Non-GSA Contract Audits
01/12/01       A010104         Preaward Audit of Cost or Pricing Data:
                               Shell Oil Company

02/05/01       A010119         Preaward Audit of Cost or Pricing Data:
                               Shell Oil Company




60 Semiannual Report to the Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.

Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed


Date of        Audit
Report         Number                                           Title



Contract Audits
09/20/96       A61534          Preaward Audit of a Claim: Marino Construction Company, Contract Number
                               GS05P90GBC0101

11/01/96       A21882          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-07065 for the Period November 14, 1988 Through
                               September 30, 1991

11/01/96       A31851          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02598 for the Period August 26, 1988 Through
                               March 31, 1991

11/01/96       A31865          Postaward Audit of Multiple Award Schedule Contract: Hamilton Sorter Company,
                               Inc., Contract Number GS-00F-02046 for the Period December 4, 1987 Through
                               September 30, 1990

12/17/96       A70606          Postaward Audit of Travel Costs: Centel Federal Systems Corporation, Contract
                               Number GS-00K-89AHD0007

01/10/97       A52159          Postaward Audit of Multiple Award Schedule Contract: Austin Computer Systems,
                               Inc., Contract Number GS-00K-91-AGS-5201

02/06/97       A70622          Preaward Audit of Change Order Proposal: Turner Construction Company,
                               Contract Number GS-02P-95-DTC-0014

03/21/97       A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                               GS-02P-94-CUC-0033(N)

03/24/97       A72434          Audit of Real Estate Tax Adjustments: WRC Properties, Inc., Lease Number GS-
                               09B-88163, Calendar Years 1990 Through 1996

04/24/97       A71212          Preaward Audit of Cost and Pricing Proposal: The Logistics Company, Inc., Task
                               Order Request GSC-TFGE-97-2002

06/06/97       A73619          Preaward Audit of Cost or Pricing Data: Symbiont, Inc., RFP Number GSC-TFGD-
                               97-1010




                                                                                         Office of Inspector General 61
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


06/11/97       A61827          Postaward Audit of Multiple Award Schedule Contract: Alexander Manufacturing
                               Company, Contract Number GS-07F-3956A for the Period February 1, 1992
                               Through October 31, 1995

06/16/97       A70927          Preaward Audit of Cost or Pricing Data: JIL Information Systems, Inc., Proposal
                               No. GSC-TFGD-97-1012

06/24/97       A70928          Preaward Audit of Cost or Pricing Data: Criticom, Inc., Solicitation No. GSC-FGD-
                               97-1014

06/27/97       A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to:      Morse
                               Diesel International, Inc., Contract Number GS06P94GYC0037

07/11/97       A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                               Number GS06P94GYC0037

07/22/97       A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                               Subcontractor to Morse Diesel International, Inc., Contract Number
                               GS06P94GYC0037

07/31/97       A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                               Number GS06P94GYC0037

08/05/97       A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                               Severely Disabled, Agreement Number GS-02F-61511

08/22/97       A70646          Preaward Audit of a Delay Claim:      Beacon/Pro Con Joint Venture, Contract
                               Number GS-02P-94-CUC-0070(N)

09/22/97       A70649          Preaward Audit of a Delay Claim: Consolidated Electric, Inc., Subcontractor to
                               Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

09/24/97       A71526          Price Adjustments on Multiple Award Schedule Contract: Domore Corporation,
                               Contract Number GS-00F-5232A for the Interim Period December 1, 1997 Through
                               January 31, 2001

10/02/97       A72478          Audit of Claim for Increased Costs: Gonzales Construction Company, Inc.,
                               Contract Number GS-08P-95-JAC-0001

10/23/97       A70655          Preaward Audit of a Delay Claim: Denron Plumbing and HVAC, Inc., Subcontractor
                               to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

10/23/97       A72486          Audit of Claim for Increased Costs: Mountain Gravel & Construction Co.,
                               Subcontractor to Gonzales Construction Company, Inc., Contract Number GS-8P-
                               95-JAC-0001




62 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                 Title


10/24/97   A70660   Preaward Audit of a Change Order Proposal: Beacon/Pro Con Joint Venture,
                    Contract Number GS-02P-94-CUC-0070(N)

11/12/97   A70656   Preaward Audit of a Delay Claim: J.C. Higgins Corp., Subcontractor to Beacon/Pro
                    Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

11/26/97   A22536   Postaward Audit of Multiple Award Schedule Contract:        Ingres Corporation,
                    Contract Number GS00K89AGS5589

11/26/97   A32476   Limited Audit of Government Billings:    Ingres Corporation, Contract Number
                    GS00K89AGS5589

12/10/97   A81512   Preaward Audit of a Claim for Increased Costs: Don-Lee, Inc., Subcontractor to
                    D.L. Woods Construction Inc., Contract Number GS05P91GBC0057

12/24/97   A80602   Preaward Audit of a Delay Claim: Dan Lepore and Sons, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98   A80604   Preaward Audit of a Delay Claim: Able Finishing, Inc., Subcontractor to
                    Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-CUC-0070(N)

01/12/98   A80608   Preaward Audit of a Delay Claim:      Beacon/Pro Con Joint Venture, Contract
                    Number GS-02P-94-CUC-0070(N)

02/05/98   A80609   Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                    Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                    CUC-0070(N)

02/11/98   A80607   Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                    02P-94-CUC-0070(N)

03/19/98   A81515   Audit of Claim for Increased Costs: Herman B. Taylor Construction Company,
                    Contract Number GS-07P-92-HUC-0017

04/13/98   A80621   Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                    02P-94-CUC-0070(N)

04/20/98   A81528   Audit of Real Estate Tax Adjustments: American National Bank, Trustee, Lease
                    Number GS-05B-15448, Calendar Years 1994 Through 1996

05/27/98   A42146   Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                    Contract Number GS-00F-07010

06/08/98   A80618   Postaward Audit of Recoverable Costs: Six World Trade Center, New York, NY,
                    Lease Number GS-02B-15370




                                                                         Office of Inspector General 63
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


06/17/98       A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                               Contract Number GS-09P-95-KTC-0010

07/17/98       A60934          Postaward Audit of Multiple Award Schedule Contract: Interface Flooring Systems,
                               Inc., Contract Number GS-00F-0002A for the Interim Period October 8, 1992
                               Through February 28, 1997

08/12/98       A82451          Preaward Audit of a Claim for Increased Costs:     Thermal Management, Inc.,
                               Contract Number GS05P95GBC0004

08/12/98       A82452          Audit of Termination Settlement Proposal: Thermal Management, Inc., Contract
                               Number GS05P95GBC0004

09/04/98       A990302         Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                               Systems, Contract Number GS-00F-76574

09/22/98       A80931          Preaward Review of Multiple Award Schedule Contract For The Extension Period
                               April 1, 1999 Through March 31, 2004: Computer Associates International, Inc.,
                               Contract Number GS-35F-5169H

09/24/98       A80934          Preaward Audit of Multiple Award Schedule Contract: Simple Green, a Division of
                               Sunshine Makers, Inc., Solicitation Number TFTP-97-SC-7906B

09/24/98       A82456          Audit of Termination Settlement Proposal: Witherington Construction Corporation,
                               Contract Number GS-07P-95-HUC-0068

10/13/98       A80636          Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                               Number GS-02P-96-DTC-0033

10/20/98       A80639          Postaward Audit of Multiple Award Schedule Contract:        Photon Technology
                               International, Inc., Contract Number GS-24F-1140B

10/20/98       A80649          Preaward Audit of Architect and Engineering Services Contract: Gwathmey Siegel
                               & Assoc. Architects, LLC, Solicitation Number GS-02P-98-DTC-0059(N)

10/22/98       A80935          Preaward Audit of Architect and Engineering Services Contract:     Ove Arup &
                               Partners, Contract Number GS-02P-98-DTC-0059(N)

10/27/98       A51568          Postaward Audit of Multiple Award Schedule Contract:       Liebert Corporation,
                               Contract Number GS-07F-3779A

10/27/98       A51542          Postaward Audit of Multiple Award Schedule Contract:       Liebert Corporation,
                               Contract Number GS00F06964

11/13/98       A82471          Preaward Audit of a Claim for Increased Costs:     Hensel Phelps Construction
                               Company, Contract Number GS-08P-96-JFC-0006




64 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


11/16/98   A80646    Preaward Audit of a Claim: Beacon/Pro Con Joint Venture, Contract Number GS-
                     02P-94-CUC-0070(N)

12/15/98   A82472    Preaward Audit of a Claim for Increased Costs: Trautman & Shreve, Inc.,
                     Subcontractor to Hensel Phelps Construction Company, Contract Number GS-
                     08P-96-JFC-0006

01/05/99   A995101   Preaward Audit of Claim for Increased Costs: Program and Construction
                     Management Group, Contract Number GS-11P-94MKC-0019

01/21/99   A995123   Limited Review of Claimed Incurred Costs: Linpro New York Realty, Inc., 290
                     Broadway Retail Space

01/29/99   A995106   Postaward Audit of Overhead Rate:       Turner Construction Company, Contract
                     Number GS-05P-94GBC-0051

02/05/99   A995113   Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                     Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

02/10/99   A995158   Preaward Audit of Architect and Engineering Services Contract: H + G Architects,
                     Solicitation Number GS-02P-98-PLD-0015

02/17/99   A995100   Preaward Audit of a Claim: Chereco Co., Inc., Subcontractor to TGMI/Contractors
                     Inc., Contract Number GS-03P-96-DXC-0021

03/02/99   A995139   Preaward Audit of a Claim: Stromberg Metal Works, Inc., Subcontractor to W.M.
                     Schlosser Company, Inc., Contract Number GS-03P-92-DXC-0021

03/11/99   A995133   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     April 1, 1999 Through September 30, 2002: IBM Corporation, Contract Number
                     GS-35F-4984H

03/19/99   A995124   Audit of Claim for Increased Costs: Dawson Building Contractors, Inc., Contract
                     Number GS-04P-95-EXC-0046

03/30/99   A995150   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Ammann & Whitney Consulting Engineers, P.C., Solicitation Number GS-02P-98-
                     PLD-0015(N)

04/02/99   A995182   Preaward Audit of Architect and Engineering Services Contract: Staunton Chow
                     Engineers, P.C., Solicitation Number GS-02P-98-PLD-0015(N)

04/30/99   A995176   Preaward Audit of a Claim: Honeywell, Inc., Subcontractor to Reliable Contracting,
                     Inc., Contract Number GS-02P-91-CUC-0045(N)




                                                                           Office of Inspector General 65
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


05/05/99       A995151         Preaward Audit of Supplemental Architect and Engineering Services Contract:
                               Wank Adams Slavin Associates, Solicitation Number GS-02P-98-PLD-0015(N)

05/10/99       A995207         Audit of Recoverable Costs - FY 1997: Six World Trade Center, New York, N.Y.,
                               Lease Number GS-02B-15370

06/08/99       A995192         Limited Postaward Audit of Multiple Award Schedule Contract for the Period
                               April 1, 1997 Through February 28, 1999: Danka Office Imaging Company,
                               Contract Number GS-26F-1018B

06/15/99       A42113          Postaward Audit of Multiple Award Schedule Contract:       Herman Miller, Inc.,
                               Contract Number GS-00F-07000

06/15/99       A995171         Audit of Incurred Costs: Niagara Mohawk Power Corporation, Contract Numbers
                               EMN-1999-MO-2032 & EMN-1999-MO-2036

06/15/99       A995206         Audit of Recoverable Costs - FY 1995: Six World Trade Center, New York, N.Y.,
                               Lease Number GS-02B-15370

06/18/99       A995220         Audit of Claim for Increased Costs: PM Realty Group, Ltd., Contract Number
                               GS05P96GAC0187

06/22/99        A995164        Preaward Audit of Multiple Award Schedule Contract:         Compaq Computer
                               Corporation, Extension to Contract Number GS-35F-4544G

06/24/99       A995231         Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                               Contract Number GS-02P-95-DTC-0041(N)

07/07/99       A995249         Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                               Number GS-02P-95-DTC-0041(N)

07/07/99       A95209          Audit of Claim for Increased Costs: The Spector Group, Contract Number GS-02P-
                               92CUC0029(N)

07/12/99       A995247         Preaward Audit of Architect and Engineering Services Contract: RTKL Associates,
                               Inc., Solicitation Number GS-07P-99-UTC-0002

07/30/99       A995149         Audit of Incurred Costs: Northeast Utilities Service Company, Contract Numbers
                               EMN-1999-MO-2032 & EMN-1999-MO-2036

07/30/99       A995173         Audit of Incurred Costs: Duke Engineering & Services, Contract Numbers EMN-
                               1999-MO-2032 & EMN-1999-MO-2036

08/12/99       A995215         Audit of Incurred Costs: KeySpan Energy, Contract Numbers EMN-1999-MO-2032
                               & EMN-1999-MO-2036




66 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


09/09/99   A995283   Preaward Review of Multiple Award Schedule Contract:           National Education
                     Training Group, Inc., Contract Number GS-02B-22885

09/15/99   A52534    Postaward Audit of Multiple Award Schedule Contract:        Intermec Corporation,
                     Contract Number GS00K91AGS5288

09/15/99   A52565    Postaward Audit of Multiple Award Schedule Contract:        Intermec Corporation,
                     Contract Number GS00K91AGS5288 (PS01)

09/15/99   A52566    Postaward Audit of Multiple Award Schedule Contract:        Intermec Corporation,
                     Contract Number GS00K91AGS5288 (PS02)

09/21/99   A995316   Limited Scope Postaward Audit of Contract Billings: Stan Schwartz Associates,
                     Inc. dba Skyline Mills, Contract Number GS-03F-6018D

09/23/99   A995296   Preaward Audit of Multiple Award Schedule Contract: TCT Technical Training, Inc.,
                     Contract Number GS-02F-9308C for the Period October 1, 1999 to September 30,
                     2004

09/29/99   A995265   Audit of Claim for Increased Costs: Marino Construction Company, Inc., Contract
                     Number GS05P90GBC0101, Phase II

09/30/99   A995285   Audit of Claim for Increased Costs: Marino Construction Company, Inc., Contract
                     Number GS05P90GBC0213, Phase III

10/04/99   A995275   Preaward Audit of Change Order Proposal to Contract Number GS-
                     02P93CUC0071 for the Final Phase of the African Burial Ground Project, Howard
                     University

10/12/99   A995282   Preaward Audit of Cost or Pricing Data: Ross Barney + Jankowski, Inc., Solicitation
                     Number GS06P99GZC0010

10/13/99   A995262   Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                     Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/13/99   A995313   Preaward Audit of Supplemental Architect and Engineering Contract: Liollio
                     Associates, Inc., Solicitation Number GS-04P-99-RDD-0005

10/22/99   A995298   Postaward Audit of Multiple Award Schedule Contract: Classic Medallics, Inc.,
                     Contract Numbers GS-07F-8451C and GS-07F-9862H

10/26/99   A995278   Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                     Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

10/28/99   A995290   Audit of Termination Settlement Proposal: HBS National Corporation, Contract
                     Number GS06P97GXC0020




                                                                            Office of Inspector General 67
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


10/29/99       A995315         Preaward Audit of Cost or Pricing Data: PerformTech, Inc., Solicitation Number
                               2FYG-JI-94-0004-B4

11/03/99       A000806         Audit of Termination Claim: AT&T Communications, Contract Number GS-
                               00K89AHD0008

11/04/99       A995272         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                               Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99       A995271         Preaward Audit of Architect and Engineering Services Contract: HLW International
                               LLP, Contract Number GS-02P-93-CUC-0062

11/29/99       A995304         Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                               October 1, 1999 Through September 30, 2004: Coastal Video Communications
                               Corp., Contract Number GS-02F-9309C

11/30/99        A995289        Preaward Audit of Architect and Engineering Services Contract: Accu-Cost
                               Construction Consultants, Inc., Subcontractor to HLW International LLP, Contract
                               Number GS-02P-93-CUC-0062

12/06/99       A000852         Preaward Audit of Architect and Engineering Services Proposal: DLR Group,
                               Solicitation Number GS-10P-99-LTC-0006

12/08/99       A995330         Preaward Audit of Multiple Award Schedule Contract: Caswell International
                               Corporation, Contract Number GS-02F-0434D

12/09/99       A000838         Limited Review of Rental Rates: Newark Center Building Company, Lease Number
                               GS-02B-22847

12/13/99       A995286         Preaward Audit of Cost or Pricing Data: Hampshire College, Subcontractor to
                               Howard University, Contract Number GS-02P-93-CUC-0071

12/16/99       A000823         Preaward Audit of Cost or Pricing Data: Berkebile, Nelson, Immenschuh, McDowell
                               Incorporated, Solicitation Number GS06P99GYC0008

01/07/00       A000821         Preaward Audit of the Extension of Multiple Award Schedule Contract Number GS-
                               02F-1407H: Development Dimensions International, Inc.

01/11/00       A995325         Preaward Audit of a Claim: Standard Refrigeration Co., Inc., Subcontractor to
                               Trataros Construction, Inc., Contract Number GS-02P-96-DTC-0033

01/11/00       A000819         Preaward Audit of Architect and Engineering Services Contract: Gordon H. Smith
                               Corporation, Subcontractor to HLW International LLP, Contract Number GS-02P-
                               93-CUC-0062

01/20/00       A000816         Audit of Cost or Pricing Data: DHP Systems, Inc., Contract Number
                               GS06P99GZC0312



68 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


02/03/00   A000920   Preaward Audit of Multiple Award Schedule Contract: Sales and Management
                     Training, Inc., Contract Number GS-02F-9319C

02/04/00   A000930   Preaward Audit of Change Order Proposal: NCS/ICS Joint Venture, Contract
                     Number GS06P99GZC0302

02/08/00   A995167   Price Adjustments on Multiple Award Schedule Contract: National Education
                     Training Group, Inc., Contract Number GS-02F-0429D for the Interim Period
                     March 1, 2000 Through March 31, 2000

02/15/00   A40910    Postaward Audit of Multiple Award Schedule Contract: McNaughton Book Service,
                     Contract Number GS-02F-52166 for the Period February 24, 1989 to July 31, 1992

02/17/00   A000923   Preaward Audit of Multiple Award Schedule Contract: Shamrock Scientific
                     Specialty Systems, Inc., Contract Number GS-14F-9732C

02/18/00   A000799   Postaward Audit of Cost or Pricing Data: Montgomery KONE, Inc., Contract
                     Number GS06P99GZC0306

02/23/00   A000937   Audit of Termination Claim: CJP Contractors, Inc., Contract Number GS-
                     11P93MKC0081

03/02/00   A000934   Preaward Audit of Multiple Award Schedule Contract: TimeMed Labeling Systems,
                     Inc., Contract Number GS-14F-0150D

03/06/00   A000948   Preaward Audit of Multiple Award Schedule Contract: 3M Company, Contract
                     Number GS-14F-0161D

03/06/00   A000963   Preaward Audit of a Claim: Trataros Construction, Inc., Contract Number GS-02P-
                     96-DTC-0033

03/09/00   A000911   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: Adams Marketing Associates, Inc.,
                     Contract Number GS-14F-9734C

03/10/00   A000936   Preaward Audit of Multiple Award Schedule Contract for the Extension Period
                     February 29, 2000 Through February 28, 2005: George W. Allen Co., Inc., Contract
                     Number GS-14F-0177D

03/20/00   A000959   Preaward Audit of Change Order Proposal: Sachs Electric Company, Contract
                     Number GS06P99GZC0300

03/29/00   A81830    Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                     March 8, 1991 Through February 29, 1996




                                                                          Office of Inspector General 69
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                      Title


03/29/00       A995122         Postaward Audit of Standardization and Control of Industrial-Quality Tools
                               Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                               Period March 1, 1996 Through April 30, 1998

03/30/00       A000804         Preaward Audit of Contract Number GFS-22F-97501: Wright Express Corporation




70 Semiannual Report to the Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit                                                                          Projected Final
Report     Number                                    Title                                 Action Date


Internal Audits
03/29/96   A42720    Audit of Accounting and Billing Controls Over the Public Buildings        11/15/01
                     Service, National Capital Region’s Reimbursable Work
                     Authorizations

12/02/96   A63019    Audit of the PAPCAP Price Adjustments                                     04/15/01

03/26/97   A61247    Review of the Public Buildings Service Debarment Program                  05/15/01

07/11/97   A60645    Audit of the Federal Protective Service’s Criminal Investigation          04/15/01
                     Program

01/30/98   A72443    Audit of the Megacenter Program, Federal Protective Service,              07/15/01
                     Public Buildings Service

03/30/98   A83007    Follow-up Review of the Contract Workload Management                      08/15/01

09/14/98   A70642    Audit of the Federal Protective Service’s Program for Upgrading           09/15/01
                     Security at Federal Facilities

09/24/99   A83602    GSA’s Information Systems Security Has Not Kept Pace With                 07/15/01
                     Increasing Internet and Intranet Risks

09/30/98   A72705    Arthur Andersen LLP, Fiscal Year 1997 Comments and                        04/15/01
                     Suggestions for Consideration (Management letter)

12/01/98   A80321    Audit of the Availability of Federal Building Design Plans                05/15/01

03/24/99   A995025   Audit of Security Measures for New and Renovated Federal                  01/15/02
                     Facilities

07/15/99   A82706    PricewaterhouseCoopers LLP Management Letter, Fiscal Year                 04/15/02
                     1998 Financial Statement Audit

09/28/99   A995021   Audit of Management Controls for Non-Recurring Reimbursable               01/15/02
                     Work Authorizations

09/30/99   A995016   Security Weaknesses Place GSA’s Local Area Networks at Undue              07/15/01
                     Risk

01/28/00   A995162   Review of Controls over Federal Supply Service Payments                   05/15/01

02/16/00   A995196   Audit of PBS’s Environmental Management Program                           10/15/01




                                                                             Office of Inspector General 71
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Date of        Audit                                                                          Projected Final
Report         Number                                        Title                             Action Date



03/28/00       A995175         Audit of the Federal Protective Service’s Contract Guard Program    05/15/01

03/31/00       A995010         PBS Needs to Complete STAR Development and Implement                11/15/01
                               Management and System Controls to Fully Realize Improved
                               Capabilities




72 Semiannual Report to the Congress
                                 Appendix IV–Delinquent Debts



The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                               • Meetings were conducted with the District of
                                                            Columbia (DC) to update and issue new customer
Collection                                                  account numbers. This improved GSA’s ability to
During the period October 1, 2000 through March 31,         identify officials and funds necessary to reimburse
2001, GSA efforts to improve debt collection and            GSA. These efforts reduced outstanding DC
reduce the amount of debt written off as uncollectible      Government delinquencies by approximately
focused on upgrading the collection function and            $5 million, with promises to pay off another
enhancing debt management. These activities includ-         $7 million by the end of March 2001.
ed the following:
                                                          • Escalated communications with the Defense
• From October 1, 2000 through March 31, 2001,              Finance and Accounting Service were conducted
  GSA Finance Centers referred over $1 million of           to coordinate better communication, procedures,
  delinquent non-Federal claims to the U.S.                 and cooperation, especially on higher dollar
  Department of the Treasury (Treasury) for cross-          delinquencies for military accounts. This has
  servicing collection activities. FY 2001 collections      provided an opportunity to exchange information
  on these claims, to date, exceed $2.4 million.            leading to reduced delinquent account balances and
                                                            improved customer service.
  Administrative offsets have resulted in an additional
  collection of $1 million. GSA also collects non-
                                                          • Persistent efforts resulted in the successful
  Federal claims using Pre-Authorized Debits (PADs).        collection of approximately $873,000 from the
  From October 1, 2000 to March 31, 2001, 14 PADs           Government of American Samoa that was delin-
  totaling $5,802 were issued.                              quent for over 2 years.

• Persistent claims coordination continues to             • Efforts continue to enhance the Accounts
  strengthen the Agency’s claims collection efforts.        Receivable Claims System and the Billing
  The GSA Fleet Management Center and Heartland             Accounts Receivable Tracking system, making them
  Finance Center have participated in cross-training        better tools for collection technicians and enabling
  efforts in order to: enhance communication and            them to provide better service to their
  understanding, share ideas about improving collec-        customers.
  tions, and reduce the number and amount of vehicle
  accident claims written off.

Non-Federal Accounts Receivable

                                                  As of                   As of
                                              October 1, 2000         March 31, 2001           Difference

  Total Amounts Due GSA                         $22,326,869            $20,559,020            ($1,767,849)

  Amount Delinquent                             $13,504,312            $12,249,865            ($1,254,447)

  Total Amount Written
  Off as Uncollectible
  Between 10/1/00 and
  3/31/01                                           $232,137



                                                                                     Office of Inspector General 73
                                     Appendix V–Reporting Requirements




The table below cross-references the reporting require-                           Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                            1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                  and the National Defense Authorization Act is also
addressed.     The information requested by the                                   cross-referenced to the appropriate page of the report.



  Requirement                                                                                                                                    Page

  Inspector General Act

     Section 4(a)(2) - Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35

     Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . .2, 18

     Section 5(a)(2) - Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 18

     Section 5(a)(3) - Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . .45

     Section 5(a)(4) - Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41

     Sections 5(a)(5) and 6(b)(2) - Summary of Instances Where
      Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) - List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .48

     Section 5(a)(7) - Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . .2, 18

     Section 5(a)(8) - Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .40

     Section 5(a)(9) - Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .39

     Section 5(a)(10) - Summary of Each Audit Report over 6 Months
      Old for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(11) - Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) - Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .38

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .73

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .61




74 Semiannual Report to the Congress
Notes




        Office of Inspector General 75
                                       Notes




76 Semiannual Report to the Congress
Ii ,
III


I

                                       ,
            III


I           I
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector eneral's Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write:     GSA, IG, Hotline Officer
              Washington, DC 20405


u.s. General Services Administration
Office of Inspector General
